No. 20-___
In the Supreme Court of the United States
HZNP FINANCE LIMITED,
HORIZON THERAPEUTICS USA, INC.,
Petitioners,
v.
ACTAVIS LABORATORIES UT, INC.,
Respondent.
______________________________________________
On Petition for A Writ of Certiorari to The United States
Court of Appeals for The Federal Circuit
PETITION FOR A WRIT OF CERTIORARI
ROBERT F. GREEN
Counsel of Record
rgreen@greengriffith.com
CARYN C. BORG-BREEN
JESSICA TYRUS MACKAY
BENJAMIN D. WITTE
GREEN, GRIFFITH & BORG-BREEN LLP
City Place
676 North Michigan Avenue, Suite 3900
Chicago, IL 60611
(312) 883-8000
Attorneys for Petitioner

QUESTION PRESENTED
Whether the “basic and novel properties” identified in connection with a patent
claim’s transitional phrase “consisting essentially of” must independently satisfy the
requirements of 35 U.S.C. § 112, ¶ 2, of the Patent Act, and the accompanying
“reasonable certainty” standard set forth in Nautilus, Inc. v. Biosig Instruments Inc.,
134 S. Ct. 2120 (2014).

i

PARTIES TO THE PROCEEDING
Petitioners HZNP Finance Limited and Horizon Therapeutics USA, Inc. were
Plaintiffs-Appellants below.
Respondent Actavis Laboratories UT, Inc. was Defendant-Cross-Appellant
below.
RULE 29.6 CORPORATE DISCLOSURE STATEMENT
Petitioners HZNP Finance Limited and Horizon Therapeutics USA, Inc. are
wholly owned subsidiaries of Horizon Therapeutics plc. Horizon Therapeutics plc has
no parent corporation, and no publicly held company holds 10% or more of its stock.

ii

RELATED PROCEEDINGS
HZNP Finance Limited, et al. v. Actavis Laboratories UT, Inc., No. 2017-2149 (the
additional cases included in this consolidated appeal are: Nos. 2017-2152, -2153, 2202, -2203, -2206) (Fed. Cir. Oct. 10, 2019)
Horizon Pharma Ireland Limited, et al. v. Actavis Laboratories UT, Inc., Civil Action
No. 1:14-cv-07992-NLH-AMD (D.N.J.) (August 17, 2016 Markman Opinion)

iii

TABLE OF CONTENTS
QUESTION PRESENTED ............................................................................................. i
PARTIES TO THE PROCEEDING .............................................................................. ii
RULE 29.6 CORPORATE DISCLOSURE STATEMENT............................................ ii
RELATED PROCEEDINGS......................................................................................... iii
TABLE OF CONTENTS ............................................................................................... iv
TABLE OF APPENDICES ........................................................................................... vi
TABLE OF AUTHORITIES ........................................................................................ vii
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
OPINIONS AND ORDERS BELOW............................................................................. 1
STATEMENT OF JURISDICTION .............................................................................. 1
STATUTORY PROVISIONS INVOLVED .................................................................... 2
INTRODUCTION .......................................................................................................... 3
STATEMENT OF THE CASE....................................................................................... 6
I.

LEGAL STANDARD ................................................................................ 6

II.

THE CLAIMED INVENTION ................................................................. 7

III.

DISTRICT COURT PROCEEDINGS ...................................................... 8

IV.

FEDERAL CIRCUIT PROCEEDINGS ................................................... 9

REASONS FOR GRANTING THE PETITION .......................................................... 10
I.

THE FEDERAL CIRCUIT’S CONSTRUCTION OF
“CONSISTING ESSENTIALLY OF” VITIATES SEVENTY
YEARS OF ESTABLISHED USAGE .................................................... 10

II.

THE FEDERAL CIRCUIT MAJORITY’S NEW RULE
SUBJECTING “BASIC AND NOVEL PROPERTIES” TO THE
DEFINITENESS STANDARD IS WITHOUT LEGAL BASIS ............ 13

iv

III.

THE NOTICE FUNCTION OF “CONSISTING ESSENTIALLY
OF” CLAIMS IS SERVED WITHOUT NEED FOR
INCORPORATION OF THE “BASIC AND NOVEL
PROPERTIES” ....................................................................................... 15

IV.

THE FEDERAL CIRCUIT’S NEW RULE CASTS A PALL OF
UNCERTAINTY OVER THE VALIDITY OF ISSUED
PATENTS AND FUTURE APPLICATIONS SUBMITTED TO
THE PATENT OFFICE ......................................................................... 16

CONCLUSION............................................................................................................. 19

v

TABLE OF APPENDICES
Appendix A: Opinion of the United States Court of Appeals for the Federal Circuit
dated October 10, 2019 (Appx. 1-55)
Appendix B: Judgment and Order of the United States Court of Appeals for the
Federal Circuit dated October 10, 2019 (Appx. 56-57)
Appendix C: Opinion of the United States District Court of New Jersey dated
August 17, 2016 (Appx. 58-85)
Appendix D: Opinion of the United States District Court of New Jersey dated
January 6, 2017 (Appx. 86-94)
Appendix E: Order Denying Petition for Rehearing En Banc dated February 25,
2020 (Appx. 95-101)

vi

TABLE OF AUTHORITIES
Cases
AK Steel Corp. v. Sollac and Ugine,
344 F.3d 1234 (Fed. Cir. 2003) ...................................................................... 6, 11, 14
Atlas Powder Co. v. E.I. du Pont De Nemours & Co.,
750 F.2d 1569 (Fed. Cir. 1984) ................................................................................ 11
Depomed, Inc. v. Sun Pharma Global FZE,
C.A. No. 11-3553 (JAP), 2012 WL 3201962 (D.N.J. Aug. 3, 2012) ......................... 18
Ex parte Davis,
80 U.S.P.Q. 448 (Pat. Office Bd. App. 1948) ....................................................... 9, 10
In re Garnero,
412 F.2d 276 (C.C.P.A. 1969) ................................................................................... 10
In re Herz,
537 F.2d 549 (C.C.P.A. 1976) ................................................................................... 10
In re Janakirama-Rao,
317 F.2d 951 (C.C.P.A. 1963) ................................................................................... 10
Markman v. Westview Instruments, Inc.,
52 F.3d 967 (Fed. Cir. 1995) (en banc) .................................................................... 13
Mayne Pharma Int’l Pty Ltd. v. Merck & Co., Inc.,
Civ. No. 15-438, 2016 WL 7441069 (D. Del. Dec. 27, 2016).................................... 18
Nautilus, Inc. v. Biosig Instruments Inc.,
134 S. Ct. 2120 (2014) ...................................................................................... passim
Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005) (en banc) ................................................................ 13
PPG Indus. v. Guardian Indus. Corp.,
156 F.3d 1351 (Fed. Cir. 1998) ........................................................................ passim
Prostrakan, Inc. v. Actavis Labs. UT, Inc.,
Civ. No. 16-cv-0044, 2017 WL 3028876 (E.D. Tex. July 15, 2017) ......................... 17
Senju Pharm. Co., Ltd. v. Lupin Ltd.,
162 F.Supp.3d 405 (D.N.J. Nov. 18, 2015) .............................................................. 18

vii

Vitronics Corp. v. Conceptronic, Inc.,
90 F.3d 1576 (Fed. Cir 1996) ................................................................................... 13
Statutes
28 U.S.C. § 1254(1) ........................................................................................................ 1
35 U.S.C. § 112 ..................................................................................................... passim
Other Authorities
Aydin Harston & Alvin Lee, Time to Rethink “Consisting Essentially of” as a
Claim Limitation, Biologics & Biosimilars (Nov. 11, 2019) ..................................... 5
MPEP § 2107 (9th ed. Rev. 08.2017, Jan. 2018)......................................................... 17

viii

PETITION FOR A WRIT OF CERTIORARI
Petitioners HZNP Finance Limited and Horizon Therapeutics USA, Inc.
respectfully petition for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Federal Circuit in this case.
OPINIONS AND ORDERS BELOW
The opinion of the U.S. Court of Appeals for the Federal Circuit (Appx. 1-55) is
reported at HZNP Medicines LLC v. Actavis Labs. UT, Inc., 940 F.3d 680 (Fed. Cir.
2019)
The order denying rehearing en banc (Appx. 95-101) is reported at HZNP Fin.
Ltd. v. Actavis Labs. UT, Inc., 950 F.3d 867 (Fed. Cir. 2020).
The district court’s Markman opinion dated August 17, 2016 is unreported and
reproduced at Appx. 58-85.
The district court’s opinion on request for reconsideration dated January 6,
2017 is unreported and reproduced at Appx. 86-94.
STATEMENT OF JURISDICTION
The judgment of the U.S. Court of Appeals for the Federal Circuit was entered
on October 10, 2019. Appx. 56-57. Horizon’s petition for rehearing en banc was denied
on February 25, 2020. Appx. 95-101. The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1), and the Court’s order dated March 19, 2020, extending the
deadline to file petitions for writ of certiorari to 150 days from the date of the order
denying a timely petition for rehearing.

1

STATUTORY PROVISIONS INVOLVED
Section 112, ¶ 2 of Title 35 of the United States Code 1 provides in relevant
part:
The specification shall conclude with one or more claims particularly
pointing out and distinctly claiming the subject matter which the
applicant regards as his invention.

The applications resulting in the patents-in-suit were filed before the enactment of
the Leahy-Smith America Invents Act (“AIA”). Accordingly, the pre-AIA version of 35
U.S.C. § 112 governs this case.
1

2

INTRODUCTION
The Federal Circuit’s majority 8-4 decision creates a new rule of patent law
that overturns decades of jurisprudence and finds no support in the language of 35
U.S.C. § 112, ¶ 2, of the Patent Act. Section 112, ¶ 2, on its face requires that the
claims of a patent “particularly point[] out and distinctly claim[]” the invention.
Despite this clear language, the Federal Circuit has issued a ruling whereby any
patent claim reciting an invention using the transitional phrase “consisting
essentially of” must be accompanied by a description of “basic and novel properties”
in the patent specification, which must independently satisfy the definiteness
requirement of 35 U.S.C. § 112, ¶ 2, even though such “basic and novel properties”
are not themselves limitations of the patent claim. The Federal Circuit’s decision
must be reversed to avoid confusion regarding the validity of tens of thousands of
validly issued patents containing patent claims employing the “consisting essentially
of” transitional phrase, as well as countless patent applications currently under
review by the United States Patent and Trademark Office (“PTO”). 2
At least four Federal Circuit judges have concluded that the majority’s new
rule is legally erroneous. For example, Judge Newman concluded in her opinion
dissenting from the panel majority’s decision that “[t]his new rule is not in conformity
with precedent” and is “contrary to long-standing law and practice.” Appx. 48; Appx.
52. Judge Newman reasoned that § 112 applies only to a patent’s claims, and the

Currently, the Manual of Patent Examining Procedure (“MPEP”) does not provide
any guidance for evaluating the scope or definiteness of the “basic and novel
properties.”

2

3

Federal Circuit’s decision improperly “incorporated into the scope of the claims an
evaluation of the basic and novel properties” which “is not the correct application of
section 112(b).” Appx. 47-48.
Judge Lourie subsequently issued a dissenting opinion from the denial of
Horizon’s petition for en banc rehearing (denied 8 to 4), which was joined by Judge
Newman, O’Malley, and Stoll. Appx. 97-101. These judges found the Federal Circuit’s
decision erroneous because “[t]he advantages of the invention, its utility and its basic
and novel properties, are not in the claims” and “are not to be incorporated into claims
for purposes of evaluating their indefiniteness” because “[i]t is the language of the
claims that determines their definiteness” under § 112. Appx. 99. These judges
further recognized that unrecited materials “may exist in an almost infinite variety”
and thus “[i]n an infringement suit, the meaning of the ‘consisting essentially of’
language should boil down to a fact question, i.e., whether the presence of an
unrecited material in an accused product is in fact inconsistent with, or defeats the
purpose of, the claimed composition.” Appx. 100. These judges explained that “the
fact that one generally has to determine this question at trial does not make the claim
indefinite” and “[t]o hold to the contrary is to vitiate established usage that
indefiniteness of claims is to be determined based on what the claim recites, not
advantages cited in the specification.” Id.
These judges further warned that the Federal Circuit’s new rule would have
practical implications far beyond the case at hand. Judge Newman characterized the
decision as creating a “new rule” which “sows conflict and confusion” and “casts

4

countless patents into uncertainty.” Appx. 53. Judge Lourie, joined by the others,
agreed that “the issue is of broader importance” and cautioned that “under the rule
this opinion purports to adopt, any uncertainty concerning advantages, utility, or
methods of determining such could, wrongly in my view, be translated into
indefiniteness of claims.” Appx. 99; Appx. 101.
The implications of the Federal Circuit’s 8-4 majority decision are significant.
As one commentator put it, “the implications of this decision are wide and unsettling”
because over 32,000 U.S. patents have been granted over the past 20 years using the
phrase “consisting essentially of” and moving forward the “basic and novel
characteristics of the claimed invention will now become a major point of contention
during the claim construction phase and beyond.” Aydin Harston & Alvin Lee, Time
to Rethink “Consisting Essentially of” as a Claim Limitation, Biologics & Biosimilars
(Nov. 11, 2019). Indeed, according to the PTO’s database, over 42,000 patents have
issued using this transitional phrase since 2000. 3 According to Harston and Lee,
patents directed to peptide and antibody inventions are particularly at risk.
This Court can immediately resolve the question of whether the definiteness
requirement of 35 U.S.C. § 112, ¶ 2, applies to the “basic and novel properties” of an
invention claimed using the phrase “consisting essentially of,” as there are no factual
or additional legal issues to complicate this Court’s analysis. This Court should grant

Based on PTO Patent Full-Text and Image Database searches
(http://patft.uspto.gov/netahtml/PTO/search-adv.htm) conducted on July 23, 2020
using the query: ACLM/("consisting essentially" or "consists essentially" or "consist
essentially") andnot ("group consisting essentially" or "group consists essentially" or
"group consist essentially") and ISD/1/1/2000->7/23/2020.
3

5

review to correct the Federal Circuit’s mistake and reaffirm that 35 U.S.C. § 112, ¶ 2
applies only to the claims of the patent, not the “basic and novel properties” of the
invention.
STATEMENT OF THE CASE
I.

Legal Standard
The definiteness requirement of 35 U.S.C. § 112, ¶ 2, provides that “[t]he

specification shall conclude with one or more claims particularly pointing out and
distinctly claiming the subject matter which the applicant regards as his invention.”
In Nautilus, the Supreme Court replaced the prior “insolubly ambiguous” standard
for definiteness, and held that “a patent is invalid for indefiniteness if its claims, read
in light of the specification delineating the patent, and the prosecution history, fail to
inform, with reasonable certainty, those skilled in the art about the scope of the
invention.” Nautilus, Inc. v. Biosig Instruments, Inc., 134 S. Ct. 2120, 2124 (2014).
The Nautilus decision did not discuss or relate to the transitional phrase “consisting
essentially of.”
Prior to this case, no court had ever applied the definiteness requirement of 35
U.S.C. § 112, ¶ 2, to the “basic and novel properties” identified from a patent
specification in connection with the term “consisting essentially of.” Rather, the
transitional phrase “consisting essentially of” has consistently been treated as a legal
term of art in patent law which is “understood to permit inclusion of components not
listed in the claim, provided that they do not ‘materially affect the basic and novel
properties of the invention.’” AK Steel Corp. v. Sollac & Ugine, 344 F.3d 1234, 1239

6

(Fed. Cir. 2003); see also PPG Indus. v. Guardian Indus. Corp., 156 F.3d 1351, 1354
(Fed. Cir. 1998).
Nothing in the Nautilus decision compels or sanctions the Federal Circuit’s
departure from this long-established precedent.
II.

The Claimed Invention
This case involves U.S. Patent No. 8,252,838 (“the ’838 patent”) and related

family members which are directed to topical diclofenac sodium gel formulations for
use in treating osteoarthritis. In several instances, the inventors of the ’838 patent
elected to claim their improved formulation using the “consisting essentially of”
transitional phrase. Appx. 20-21. Claim 49 of the ’838 patent is illustrative and
recites:
49. A topical formulation consisting essentially of:
1–2% w/w diclofenac sodium;
40–50% w/w DMSO;
23–29% w/w ethanol;
10–12% w/w propylene glycol;
hydroxypropyl cellulose; and
water to make 100% w/w,
wherein the topical formulation has a viscosity of 500–5000
centipoise.
Appx. 21. The patent specification describes that the inventive formulations have
certain advantages over the prior art topical diclofenac sodium liquid formulation,
including (i) better drying time, (ii) higher viscosity, (iii) increased transdermal flux,
(iv) greater pharmacokinetic absorption in vivo, and (v) favorable stability. Appx. 23.

7

III.

District Court Proceedings
The District Court first recognized that “consisting essentially of” is a

transitional phase having a well-established legal meaning: it requires that the
invention necessarily includes the listed ingredients and is open to the inclusion of
additional unlisted ingredients “that do not materially affect the basic and novel
properties of the invention.” Appx. 71-72 (citing PPG Indus., 156 F.3d at 1354).
Because the “basic and novel properties” of the invention were in dispute, the District
Court concluded it was necessary to identify the “basic and novel properties” so as “to
delineate what must be shown for the purposes of infringement or invalidity.” Appx.
72.
The District Court found the “basic and novel properties” of the invention were
set forth in the ’838 patent and identified them as: (1) better drying time; (2) higher
viscosity; (3) increased transdermal flux; (4) greater pharmacokinetic absorption; and
(5) favorable stability. Appx. 80.
However, even though no court had ever applied the definiteness requirement
of 35 U.S.C. § 112, ¶ 2 to “basic and novel properties,” the District Court assessed the
definiteness of each “basic and novel property,” citing the Supreme Court’s
“reasonable certainty” standard in Nautilus. In doing so, the District Court found
that the basic and novel properties “better drying time” and “favorable stability” were
indefinite because the specification described more than one way of measuring these
parameters. Appx. 81-84; Appx. 91-94. Notably, no unlisted ingredients were at issue
before the District Court.

8

IV.

Federal Circuit Proceedings
On appeal, the Federal Circuit affirmed the District Court’s identification of

the five basic and novel properties of the invention: (1) better drying time; (2) higher
viscosity; (3) increased transdermal flux; (4) greater pharmacokinetic absorption; and
(5) favorable stability. Appx. 23. Regarding whether the Nautilus definiteness
standard applied to the basic and novel properties, the Federal Circuit reasoned that
“if a POSITA cannot ascertain the bounds of the basic and novel properties of the
invention, then there is no basis upon which to ground the analysis of whether an
unlisted ingredient has a material effect on the basic and novel properties.” Appx. 28.
The Federal Circuit concluded that “[t]o determine if an unlisted ingredient
materially alters the basic and novel properties of an invention, the Nautilus
definiteness standard requires that the basic and novel properties be known and
definite.” Appx. 28. The Federal Circuit found the District Court did not err in
determining that the basic and novel property of “better drying time” was indefinite,
because the specification described two methods of measuring drying time, which the
District Court found provided inconsistent results at inconsistent times. Appx. 29-33.
Judge Newman issued an opinion concurring in part and dissenting in part.
Judge Newman dissented with respect to the panel majority’s analysis of the “basic
and novel properties” and the finding that “consisting essentially of” was indefinite.
Appx. 47-54.
Horizon filed a petition for rehearing en banc which the Federal Circuit denied
(8 to 4) on February 25, 2020. Appx. 96. Judge Lourie issued the dissenting opinion,
joined by Judges Newman, O’Malley, and Stoll, in which they concluded the Federal

9

Circuit’s decision was erroneous and would have implications beyond the case at
hand. Appx. 97-101.
REASONS FOR GRANTING THE PETITION
I.

The Federal Circuit’s Construction of “Consisting Essentially of”
Vitiates Seventy Years of Established Usage
As Judge Lourie explained in his 8-4 dissent, the term “consisting essentially

of” is “clear, definite, language.” Appx. 100. Indeed, for seven decades, as described in
detail below, the PTO, the Court of Customs and Patent Appeals (C.C.P.A.) and the
Federal Circuit consistently understood the phrase “consisting essentially of” to be a
term of art with a definite legal definition. Accordingly, the Federal Circuit majority’s
8-4 decision finding “consisting essentially of” indefinite based on uncertainty
regarding one of the “basic and novel properties,” which are not elements of the patent
claims, improperly “vitiate[s] established usage that indefiniteness of claims is to be
determined based on what the claim recites, not advantages cited in the
specification.” Appx. 100.
The history of the phrase “consisting essentially of” began in 1948 when the
phrase was first construed when an applicant appealed the PTO’s final rejection of a
patent claim to a tape having an adhesive composition “consisting essentially of”
three components over a prior art composition that had the same three components
plus an additional fourth component. Ex parte Davis, 80 U.S.P.Q. 448, 448-49 (Pat.
Office Bd. App. 1948). The PTO Examiner rejected the claims to the tape because “the
expression ‘consisting essentially of’ … [was] not considered as definitely precluding
the presence of ingredients other than those recited.” Id. at 449. The PTO Board of

10

Appeals initially agreed that the phrase was “self-contradictory, and render[ed] the
claims indefinite,” but then modified its decision to adopt a “code of terms for use in
compositions to aid uniformity of practice” used by a group of Primary Examiners at
the PTO, whereby recital of “essentially” along with “consisting of” was construed as
“rendering the claim open only for the inclusion of unspecified ingredients which do
not materially affect the basic and novel characteristics of the composition.” Id.
at 449-450 (emphasis added). Having adopted this construction, the Board then
analyzed whether the fourth component present in the prior art “materially change[d]
the fundamental character of the three-ingredient composition” such that the claims
were patentably distinct. Id. at 450.
The C.C.P.A soon thereafter adopted the PTO Board’s construction of
“consisting essentially of” and the use of “basic and novel properties” as a tool to
determine whether additional unrecited elements materially affected the invention
such that a composition containing the unrecited elements was excluded from the
claimed scope. See, e.g., In re Janakirama-Rao, 317 F.2d 951, 952-54 (C.C.P.A. 1963);
In re Garnero, 412 F.2d 276, 279 (C.C.P.A. 1969); In re Herz, 537 F.2d 549, 552-53
(C.C.P.A. 1976). When the intrinsic record failed to identify “basic and novel
properties,” the C.C.P.A. held that the patentee failed to provide evidence that the
claimed invention was patentably distinct from the prior art. See In re JanakiramaRao, 317 F.2d at 954.
Importantly, neither the PTO Board nor the C.C.P.A. viewed identification of
the “basic and novel properties” as a necessary part of claim construction to determine

11

the scope of “consisting essentially of,” or considered the phrase “consisting
essentially of” indefinite if the “basic and novel properties” were undefined.
Until this case on appeal, the Federal Circuit adhered to the C.C.P.A.
precedent. The Federal Circuit construed “consisting essentially of” as limiting the
claim scope to the specific listed ingredients and excluding any additional ingredients
that materially affected the “basic and novel properties.” Atlas Powder Co. v. E.I. du
Pont De Nemours & Co., 750 F.2d 1569, 1574 (Fed. Cir. 1984); PPG Indus., 156 F.3d
at 1354-55; AK Steel, 344 F.3d at 1239-40. And the Federal Circuit assessed the “basic
and novel properties” only when needed as part of the fact-based inquiry to determine
whether additional unrecited elements in an accused product or prior art product
made a material difference. PPG Indus., 156 F.3d at 1354-55; AK Steel, 344 F.3d at
1239-40.
To be sure, the Federal Circuit recognized that the claim phrase “consisting
essentially of” inherently contains some imprecision. PPG Indus. 156 F.3d at 1355
(recognizing that “consisting essentially of” claims are not precise or specific); see also
AK Steel, 344 F.3d at 1239 (“In view of the ambiguous nature of the phrase, it has
long been understood to permit inclusion of components not listed in the claim,
provided that they do not ‘materially affect the basic and novel properties of the
invention.’”). But, consistent with the C.C.P.A. precedent, the Federal Circuit
instructed that it was the purview of the trier of fact to resolve any such imprecision
because the application of “basic and novel properties” is a factual question. PPG
Indus. 156 F.3d at 1355 (warning that a court may not, through claim construction,

12

give a “consisting essentially of” claim “whatever additional precision or specificity is
necessary to facilitate a comparison between the claim and the accused product”
because that task is for the finder of fact).
Importantly, the Federal Circuit never, prior to this case on appeal, held that
the phrase “consisting essentially of” is invalid under 35 U.S.C. § 112, ¶ 2 because of
its inherent imprecision. And the Federal Circuit never held that the “basic and novel
properties” must be identified in order to determine the metes and bounds of
“consisting essentially of,” or treated the “basic and novel properties” as claim
limitations that are subject to the requirements of 35 U.S.C. § 112, ¶ 2.
In this case, the Federal Circuit’s 8-4 majority deviates from decades-old
established construction of “consisting essentially of.” The majority articulates a new
standard, which requires identification of “basic and novel properties” for the
purposes of evaluating them under the definiteness standard as if they were claim
limitations. This was legal error.
II.

The Federal Circuit Majority’s New Rule Subjecting “Basic and
Novel Properties” to the Definiteness Standard Is Without Legal
Basis
On its face, the definiteness requirement of 35 U.S.C. § 112, ¶ 2 is strictly

limited to the claims. Accordingly, as Judge Lourie explained in his 8-4 dissent, “it is
the language of the claims that must not be indefinite, not the understanding or
clarity of an advantage of the invention. The advantages of the invention, its utility
and its basic and novel properties, are not in the claims.” Appx. 99.

13

Prior to its 8-4 decision, the Federal Circuit repeatedly observed, “[i]t is a
‘bedrock principle’ of patent law that ‘the claims of a patent define the invention to
which the patentee is entitled the right to exclude.’” Phillips v. AWH Corp., 415 F.3d
1303, 1312 (Fed. Cir. 2005) (en banc). “We look to the words of the claims themselves
... to define the scope of the patented invention.” Vitronics Corp. v. Conceptronic, Inc.,
90 F.3d 1576, 1582 (Fed. Cir 1996). “The written description part of the specification
itself does not delimit the right to exclude. That is the function and purpose of claims.”
Markman v. Westview Instruments, Inc., 52 F.3d 967, 980 (Fed. Cir. 1995) (en banc).
Nothing in the law justifies the Federal Circuit majority’s deviation from this bedrock
principle.
The Federal Circuit panel majority relied, in part, on this Court’s decision in
Nautilus. But Nautilus had nothing to do with the interpretation of “consisting
essentially of.” Nothing in that decision contemplates overturning decades of
precedent establishing “consisting essentially of” as a term of art or transforms the
“basic and novel properties” into claim elements that must be construed and
evaluated against the definiteness standard of 35 U.S.C. § 112, ¶ 2. Nautilus merely
clarifies the indefiniteness standard for claim terms stating, “a patent is invalid for
indefiniteness if its claims, read in light of the specification delineating the patent,
and the prosecution history, fail to inform, with reasonable certainty, those skilled in
the art about the scope of the invention.” 134 S. Ct. at 2124 (emphasis added).
The Federal Circuit panel majority’s reliance on PPG Indus. and AK Steel as
providing alleged “crucial teachings” which justify extension of 35 U.S.C. § 112, ¶ 2,

14

to the “basic and novel properties” of the invention is equally misplaced. (Appx. 28.)
But, again, neither PPG Indus. nor AK Steel involves analysis of the definiteness of
“consisting essentially of” or of the “basic and novel properties” identified in
connection with that claim phrase. Neither case compels or sanctions reading “basic
and novel properties” of an invention into the claims or subjecting them to the
requirements of 35 U.S.C. § 112, ¶ 2. To the contrary, these decisions illustrate the
Federal Circuit’s consistent holding that any imprecision associated with the claim
phrase “consisting essentially of” is to be resolved by a fact-finder. See PPG Indus.
156 F.3d at 1355; AK Steel, 344 F.3d at 1239.
III.

The Notice Function of “Consisting Essentially of” Claims Is Served
Without Need for Incorporation of the “Basic and Novel Properties”
The Federal Circuit panel majority’s assertion that, under the Nautilus

standard, the “basic and novel properties” of the invention must be described with
“objective boundaries” to give the public “clear notice” of the claim’s scope is
unfounded. Appx. 25-26. The Federal Circuit has always held that any uncertainty
associated with the phrase “consisting essentially of” can and should be resolved by
the fact-finder by assessing whether the unrecited ingredients materially affect the
“basic and novel properties” of the claimed composition. PPG Indus. 156 F.3d at 1355.
In this regard, Judge Lourie correctly explains in his 8-4 dissent that “the fact that
one generally has to determine this question at trial does not make the claim
indefinite.” Appx. 100.
In this case, the claims at issue clearly identified the ingredients that are
required in the invention. As Judge Newman recognized in panel dissent, it is “hard

15

to imagine a clearer statement than a list of the ingredients that the claimed
formulation ‘consists essentially of.’” Appx. 48. The list of claimed ingredients
combined with the clear identification of five “basic and novel properties” is all that
is required to provide the public with notice as to the scope of the invention. This
information informs a person of ordinary skill in the art (“POSA”), and the public,
that the claims cover only those compositions which contain all of the listed
ingredients and which, to the extent additional unrecited ingredients are present,
have largely equivalent properties for each of the five identified properties. A POSA
and the public are therefore on notice that they can avoid infringement so long as
they omit one of the required ingredients or include an additional ingredient that
materially affects at least one of the five properties. As is always the case in a patent
infringement case, the sufficiency of noninfringement evidence is to be decided by the
trier of fact. PPG Indus. 156 F.3d at 1355.
IV.

The Federal Circuit’s New Rule Casts a Pall of Uncertainty Over the
Validity of Issued Patents and Future Applications Submitted to the
Patent Office
The Federal Circuit’s decision, if not reversed, will have long ranging and

negative consequences for the PTO and the nation’s court system. As Judge Newman
rightly warned in her panel dissent, the Federal Circuit’s decision creates a “new rule
of claiming compositions” which “casts countless patents into uncertainty.” Appx. 53.
And as Judge Lourie echoed in his 8-4 dissent, this “issue is of broader importance”
because “the principle of importing an uncertainty in measuring an advantage of an

16

invention could have unintended potential effects well beyond this particular case.”
Appx. 99; Appx. 101.
One such negative impact will be felt by inventors. The purpose of identifying
the “basic and novel properties” is to assess the impact of future, but not yet identified,
ingredients that are added to the claimed listing of ingredients (either in a prior art
description or in a future composition prepared by a potential infringer). Because
these future assessments cannot be known to an inventor, the inventor cannot
possibly envision the “bounds” of every test that might be used to carry out this
assessment. In this regard, Judge Lourie correctly recognized that the potential
unrecited materials “may exist in an almost infinite variety” and “until a suit arises,
one does not know what such an inconsistent material might be.” Appx. 100.
Importantly, the use of different ingredients may require testing according to
different methodologies. It is unduly burdensome to require the patentee to design
and describe in the patent specification how to measure each of the infinite potential
unrecited ingredients that could be added and set forth precisely the metes and
bounds of what effect is considered material. Such an extensive notice requirement
would be very difficult, if not impossible, for the patentee to meet. It is improper to
place this burden on the patentee who is not necessarily in the best position to predict
every change or improvement another might make. So long as the identity of the basic
and novel property can be determined, the sufficiency of infringement evidence
should be evaluated by the trier of fact, as has always been the case.

17

Moreover, to find a patentee’s claim invalid simply because the patentee has
failed to recite a test in the patent specification to determine the effect of any potential
unrecited ingredient that someone might add is fundamentally unfair. Under the
Federal Circuit’s new rule, even in the case of a readily discernable answer to the
factual question of whether a specific unrecited ingredient at issue materially affects
the “basic and novel properties,” the claim could still be argued to be indefinite simply
because the POSA could not discern the full scope of every potential fact pattern and
test implicated by the “basic and novel properties.” This should not be the law.
The PTO will also experience the negative impact of this new rule. The Federal
Circuit’s decision, if allowed to stand, will alter how the PTO will need to evaluate
patent applications. As Judge Lourie recognized, the utility or advantage of the
claimed compound are not currently challenged in examination unless they are not
credible. Appx. 101 (citing MPEP § 2107 (9th ed. Rev. 08.2017, Jan. 2018)). Indeed,
the Manual of Patent Examining Procedure (“MPEP”) currently does not provide any guidance for
evaluating the scope or definiteness of the “basic and novel properties.” Moving forward, for
every “consisting essentially of” claim, the PTO will need to evaluate each “basic and
novel property” independently to determine if it contains “objective boundaries”
necessary to satisfy the Nautilus standard. This will unduly complicate patent
prosecution and burden the PTO.
Finally, the court system will be negatively impacted by this new rule. The
district court’s decision, affirmed by the Federal Circuit, has facilitated, and will
continue to facilitate, meritless indefiniteness challenges to “consisting essentially of”
claims, even in the absence of any unlisted ingredients at issue, and significantly

18

complicating how courts analyze “consisting essentially of” cases at the claim
construction phase. See Prostrakan, Inc. v. Actavis Labs. UT, Inc., Civ. No. 16-cv0044, 2017 WL 3028876, at *8-9 (E.D. Tex. July 15, 2017); Mayne Pharma Int’l Pty
Ltd. v. Merck & Co., Inc., Civ. No. 15-438, 2016 WL 7441069 (D. Del. Dec. 27, 2016).
Previously, courts would at most construe “consisting essentially of” according to its
well-established legal meaning and stop, without identifying the “basic and novel
properties” unless there is some dispute as to the identity of the basic and novel
properties. See, e.g., Depomed, Inc. v. Sun Pharma Global FZE, C.A. No. 11-3553
(JAP), 2012 WL 3201962, at *13 (D.N.J. Aug. 3, 2012); Senju Pharm. Co., Ltd. v.
Lupin Ltd., 162 F.Supp.3d 405, 420-21 (D.N.J. Nov. 18, 2015). Under the panel’s
decision, this practice is effectively over. As Judge Newman’s panel dissent
recognizes, it no longer matters whether any unlisted ingredients are even in dispute.
Appx. 48; Appx. 52; Appx. 54.) Moving forward, in every instance, courts will have to
identify the “basic and novel properties” and determine whether they have “objective
boundaries.”
In sum, the Federal Circuit’s decision will have a significant negative effect on
patent prosecution at the PTO and patent litigation in district courts and the Federal
Circuit. The Court should address this issue now, before more cases are erroneously
decided under the Federal Circuit’s new rule.
CONCLUSION
For the reasons presented above, petitioners respectfully request that this
petition for a writ of certiorari be granted.

19

Respectfully submitted,
Robert F. Green
Counsel of Record
rgreen@greengriffith.com
Caryn C. Borg-Breen
Jessica Tyrus Mackay
Benjamin D. Witte
GREEN, GRIFFITH & BORG-BREEN LLP
City Place
676 North Michigan Avenue, Suite 3900
Chicago, IL 60611
Telephone: (312) 883-8000
Attorneys for Petitioners HZNP Finance Limited
and Horizon Therapeutics USA, Inc.

20

APPENDIX A

Case: 17-2149

Document: 81

Page: 1

Filed: 10/10/2019

United States Court of Appeals
for the Federal Circuit
______________________

HZNP MEDICINES LLC, HORIZON PHARMA USA,
INC.,
Plaintiffs-Appellants
v.
ACTAVIS LABORATORIES UT, INC.,
Defendant-Cross-Appellant
______________________
2017-2149, 2017-2152, 2017-2153, 2017-2202, 2017-2203,
2017-2206
______________________
Appeals from the United States District Court for the
District of New Jersey in Nos. 1:14-cv-07992-NLH-AMD,
1:15-cv-05025-NLH-AMD, 1:15-cv-06131-NLH-AMD, 1:15cv-06989-NLH-AMD, 1:15-cv-07742-NLH-AMD, 1:16-cv00645-NLH-AMD, Judge Noel Lawrence Hillman.
______________________
Decided: October 10, 2019
______________________
CARYN BORG-BREEN, Green, Griffith & Borg-Breen
LLP, Chicago, IL, argued for all plaintiffs-appellants. Also
represented by ROBERT FRITZ GREEN, JESSICA MACKAY.
MICHAEL E. JOFFRE, Sterne Kessler Goldstein & Fox,
PLLC, Washington, DC, argued for defendant-cross-appellant. Also represented by JOHN CHRISTOPHER ROZENDAAL,
KRISTINA CAGGIANO KELLY, WILLIAM H. MILLIKEN.

Appx. 1

Case: 17-2149

2

Document: 81

Page: 2

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

______________________
Before PROST, Chief Judge, NEWMAN and REYNA, Circuit
Judges.
Opinion for the court filed by Circuit Judge REYNA.
Opinion concurring in part and dissenting in part filed by
Circuit Judge NEWMAN.
REYNA, Circuit Judge.
HZNP Medicines LLC and Horizon Pharma USA, Inc.
(“Horizon”) appeal from the U.S. District Court for the District of New Jersey’s judgment of invalidity and noninfringement. Actavis Laboratories UT, Inc. (“Actavis”)
cross-appeals the district court’s judgment of nonobviousness. We affirm.
BACKGROUND
Horizon 1 is the assignee of U.S. Patent Nos. 8,217,078
(“the ’078 patent”); 9,132,110 (“the ’110 patent”); 8,618,164
(“the ’164 patent”); 9,168,304 (“the ’304 patent”); 9,168,305
(“the ’305 patent”); 8,546,450 (“the ’450 patent”); 9,101,591
(“the ’591 patent”); 8,563,613 (“the ’613 patent”); 9,220,784
(“the ’784 patent”); 8,871,809 (“the ’809 patent”); 8,252,838
(“the ’838 patent”); and 9,066,913 (“the ’913 patent”) (collectively, “the patents-at-issue” or “Horizon’s patents”).
The patents-at-issue generally relate to methods and compositions for treating osteoarthritis and can be divided into

During the pendency of this appeal, HZNP Medicines LLC substituted itself as plaintiff-appellant for Horizon Pharma Ireland Limited and HZNP Limited,
explaining that it is now the lawful holder and owner of
New Drug Application No. 204623 and of U.S. Patent
Nos. 8,217,078; 8,252,838; 8,546,450; 8,563,613; 9,066,913;
9,101,591; 9,132,110; 9,168,304; 9,168,305; and 9,220,784.
1

Appx. 2

Case: 17-2149

Document: 81

Page: 3

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

3

two groups, with the patents in each group sharing a substantially similar specification.
The first group of patents consists of method-of-use patents, including the ’450, ’078, ’110, and ’164 patents. (the
“method-of-use patents”). Claim 10 of the ’450 patent is
illustrative of the asserted claims of the method-of-use patents:
10. A method for applying topical agents to a knee
of a patient with pain, said method comprising:
applying a first medication consisting of a
topical diclofenac preparation to an area of
the knee of said patient to treat osteoarthritis of the knee of said patient, wherein
the topical diclofenac preparation comprises a therapeutically effective amount of
a diclofenac salt and 40–50% w/w dimethyl
sulfoxide;
waiting for the treated area to dry;
subsequently applying a sunscreen, or an
insect repellant to said treated area after
said treated area is dry, wherein said step
of applying a first medication does not enhance the systemic absorption of the subsequently applied sunscreen, or insect
repellant; and
wherein said subsequent application occurs during a course of treatment of said
patient with said topical diclofenac preparation.
’450 patent col. 73 l. 35–col. 74 l. 11.
The second group of patents consists of formulation patents, including the ’838, ’591, ’304, ’305, ’784, ’613, ’809,
and ’913 patents. (the “formulation patents”). Claim 49 of

Appx. 3

Case: 17-2149

4

Document: 81

Page: 4

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

the ’838 patent is illustrative of the asserted claims of the
formulation patents:
49. A topical formulation consisting essentially of:
1–2% w/w diclofenac sodium;
40–50% w/w DMSO;
23–29% w/w ethanol;
10–12% w/w propylene glycol;
hydroxypropyl cellulose; and
water to make 100% w/w, wherein the topical formulation has a viscosity of 500–5000
centipoise.
’838 patent col. 30 ll. 60–67.
Both groups of patents are listed in the U.S. Food and
Drug Administration’s (“FDA”) Approved Drug Products
with Therapeutic Equivalence Evaluations (“Orange Book”)
for Horizon’s PENNSAID® 2% product. PENNSAID® 2%
is a nonsteroidal anti-inflammatory drug (“NSAID”) and
the first FDA-approved twice-daily topical diclofenac sodium formulation for the treatment of pain of osteoarthritis
of the knees.
Relevant to the development of PENNSAID® 2% is
prior art PENNSAID® 1.5%. PENNSAID® 1.5% also
treats osteoarthritis knee pain but differs from
PENNSAID® 2% both in formulation and recommended
dosage. As to dosage, PENNSAID® 1.5% directs the user
to administer the formulation by applying 40 drops of
PENNSAID® 1.5% on each painful knee, four times a day.
J.A. 6923. PENNSAID® 2% improved upon this dosing
regimen by reducing the frequency of application to a recommended dose of 40 mg of the formulation, applied
through “2 pump actuations on each painful knee, 2 times
a day.” J.A. 6649–51.

Appx. 4

Case: 17-2149

Document: 81

Page: 5

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

5

Actavis sought to market a generic version of
PENNSAID 2% and filed Abbreviated New Drug Application (“ANDA”) No. 207238. 2 The ANDA included a certification under 21 U.S.C. § 355(j)(2)(A)(vii)(IV) (“Paragraph
IV certification”), stating that the patents-at-issue were invalid or would not be infringed by Actavis’s generic product. The filing of an ANDA with a Paragraph IV
certification constitutes an act of artificial patent infringement under 35 U.S.C. § 271(e)(2)(A), which allows litigation to commence before actual sale of an accused product
has occurred. Vanda Pharm. Inc. v. West-Ward Pharm.
Int’l Ltd., 887 F.3d 1117, 1126 (Fed. Cir. 2018).
On December 23, 2014, after receiving notice of Actavis’s Paragraph IV certification, Horizon filed suit in the
District of New Jersey, alleging infringement of the patents-at-issue under § 271(e)(2)(A).
I. Claim Construction
At the district court, the parties disputed the construction of various terms in the asserted claims. Both sides
filed claim construction briefs. The district court conducted
Markman hearings on March 3, 2016, and June 7, 2016.
On August 17, 2016, the district court issued its Markman
order, finding three terms in the asserted claims of the formulation patents to be indefinite.
First, the district court found that the term “the topical
formulation produces less than 0.1% impurity A after 6
months at 25°C and 60% humidity” was indefinite because

Watson Laboratories, Inc., (“Watson”) was the
holder of the ANDA when it was filed with the FDA. Watson later changed its name to Actavis Laboratories UT, Inc.
Actavis is now the holder of the ANDA. For simplicity, we
refer to Watson and Actavis Laboratories, UT Inc. as Actavis.
2

Appx. 5

Case: 17-2149

6

Document: 81

Page: 6

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

the identity of “impurity A” is unknowable to a person of
ordinary skill in the art (“POSITA”).
Second, the district court found that the term “the formulation degrades by less than 1% over 6 months” was indefinite because neither the claims nor the specification
disclose the means to evaluate degradation.
Third, the district court found that the term “consisting
essentially of” was indefinite. In that regard, the district
court began by recognizing that the phrase “consisting essentially of,” when used in a formulation patent, reflects
that the recited formulation includes (a) the listed ingredients that follow the phrase, and (b) unlisted ingredients
that do not materially affect the basic and novel properties
of the invention. See J.A. 14–15 (citing PPG Indus. v.
Guardian Indus. Corp., 156 F.3d 1351, 1354 (Fed. Cir.
1998)). Because the parties disputed the basic and novel
properties, the district court determined that in this case
identification of those properties was required. The district
court therefore concluded that “[b]ecause the basic and
novel properties of an invention are part of the construction
of a claim containing the phrase ‘consisting essentially of,’
the Nautilus standard applies to the assessment of an invention’s basic and novel properties.” J.A. 22–23 (citing
Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 910
(2014)).
Turning to the basic and novel properties of the invention, the district court noted that the specification identified five properties: (1) better drying time; (2) higher
viscosity; (3) increased transdermal flux; (4) greater pharmacokinetic absorption; and (5) favorable stability.
The district court focused on the “better drying time” property and held that this basic and novel property was indefinite. In doing so, the district court emphasized that the
specification described two different methods for evaluating “better drying time.” Those two methods, however, did
not provide consistent results at consistent times. Faced

Appx. 6

Case: 17-2149

Document: 81

Page: 7

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

7

with this inconsistency, the district court was persuaded by
expert testimony that a POSITA would not know under
which standard to evaluate the drying rate of the claimed
invention. According to the district court, this prevented a
POSITA from being able to have “reasonable certainty”
about the scope of the basic and novel properties of the invention, thereby rendering the term “consisting essentially
of” indefinite. J.A. 27.
On August 30, 2016, Horizon filed a motion for reconsideration of the claim construction. Horizon argued that
the district court erred by failing to consider indefiniteness
on a claim-by-claim basis. Horizon also contended that it
had been prevented from fully developing the record in relation to the “better drying time” property. On January 4,
2017, the district court conducted a hearing on the motion
for reconsideration, and on January 6, 2017, it issued an
opinion denying Horizon’s motion for reconsideration and
maintaining its initial claim constructions and indefiniteness determinations.
The district court concluded that Horizon’s arguments
on reconsideration lacked merit. As to the claim-by-claim
argument, the district court noted that Horizon chose to
address the issue in relation to the formulation patents as
a whole, and that this was a new argument raised for the
first time in a motion for reconsideration, which is improper. The district court also found that Horizon had ample notice and opportunity to present evidence and develop
the record during the two Markman hearings, the supplemental briefing in between those hearings, and during the
ten weeks between the second hearing and the Markman
order.
The district court bolstered its conclusion that the basic
and novel properties were indefinite by analyzing the “favorable stability” property, which had not been addressed
in the initial Markman order. Because the specification
failed to provide the requisite guidance for a POSITA to

Appx. 7

Case: 17-2149

8

Document: 81

Page: 8

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

evaluate stability, the district court found that the “favorable stability” property was indefinite which in this case,
by extension, rendered the phrase “consisting essentially
of” indefinite.
II. Summary Judgment
On January 27, 2017, after the district court reaffirmed
its claim constructions and related indefiniteness determinations, Actavis filed a motion for summary judgment of
noninfringement. Actavis argued that there was no dispute that Actavis did not directly infringe the patents-atissue, and that, while Horizon premised its allegations of
induced infringement upon the labeling of Actavis’s ANDA
product, there was also no material factual dispute that Actavis’s proposed label does not induce infringement.
In evaluating the inducement argument, the district
court considered, among other things, the asserted claims
of the method-of-use patents and the respective labels for
both Horizon’s and Actavis’s products. As to the asserted
claims of the method-of-use patents, the district court
found that Horizon’s claimed methods required the following steps: (1) application of the medication to knee, (2) waiting for the area to dry, and (3) application of sunscreen,
insect repellant, or a second topical medication. To perform
Horizon’s claimed methods, all the steps must be conducted.
Turning to the parties’ respective labels, according to
the district court, both were essentially the same; the main
distinction being that Actavis’s proposed ANDA label replaced “PENNSAID” with “diclofenac sodium topical solution.” In relevant part, the parties’ labels warn to “[w]ait
until the treated area is dry” before applying a second topical agent, such as sunscreen, insect repellant, or covering
the area with clothing. The district court held that this
warning was insufficient to show induced infringement because Horizon’s claimed method requires application of a
second topical agent whereas the label merely permits,

Appx. 8

Case: 17-2149

Document: 81

Page: 9

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

9

without encouraging, post-product application of sunscreen, insect repellant, or a second topical medication.
The district court thus granted summary judgment in Actavis’s favor, concluding that Horizon had not met its burden to show that Actavis’s label induced infringement of
the method-of-use patents.
III. Trial
The district court’s Markman and summary-judgment
orders disposed of most of the asserted claims of the patents-at-issue. At trial, only one claim remained—claim 12
of the ’913 patent. Actavis maintained that claim 12 of the
’913 patent was invalid as obvious. Actavis stipulated that
if the claim was found not invalid at trial, its ANDA product would infringe the claim. The stipulation thus narrowed the trial court’s focus to obviousness.
Actavis’s obviousness theory was that the changes
made to PENNSAID® 1.5%, which resulted in the
PENNSAID® 2% formulation, would have been obvious to
a POSITA based upon the prior art available at the time of
the invention.

Appx. 9

Case: 17-2149

10

Document: 81

Page: 10

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

The formulation differences between PENNSAID®
1.5% and PENNSAID® 2% (as recited in claim 12 of the
’913 patent) 3 are as follows:

J.A. 15915 (table generated by the district court). Each of
the ingredients listed above performs a specific function.
Diclofenac sodium is the active ingredient. Dimethyl sulfoxide (“DMSO”) is a penetration enhancer, which enhances absorption of the drug into the skin. Ethanol is both
a solvent, which dissolves the active ingredient for absorption of the drug into the skin, and a penetration enhancer.
Propylene glycol is a solvent. Hydroxypropyl cellulose
(“HPC”) is a thickening agent, which increases the viscosity
of a formulation. Glycerin is a humectant, which is a nonvolatile substance that holds water onto the skin. And water is a solvent.
Actavis contended that the drawbacks to PENNSAID®
1.5%—frequent application and vulnerability to run-off—

Claim 12 of the ’913 patent recites a method for applying the formulation that is collectively recited in claims
1, 8, and 9.
3

Appx. 10

Case: 17-2149

Document: 81

Page: 11

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

11

were known, and that a POSITA would have been motivated to modify PENNSAID® 1.5% to address these drawbacks by: (a) increasing the absorption to reduce
application frequency; (b) thickening the formulation; and
(c) reducing the drying time to prevent run-off. Actavis
proposed that a POSITA would have had a reasonable expectation that these modifications would address the
known drawbacks.
Actavis also pointed out that
PENNSAID® 1.5% included all of the ingredients required
by claim 12 of the ’913 patent except for a thickener (the
HPC), in addition to the claimed amounts of DMSO, propylene glycol, and water. As to the remaining limitations
in claim 12, Actavis maintained that they were disclosed in
the prior art. Actavis argued that all the changes were obvious optimizations of result-effective variables that produced a predictable result in relation to absorption,
thickness, and drying times.
Horizon, on the other hand, argued that the changes
made to PENNSAID® 1.5% were not routine optimizations, and that the results of the various changes could not
be predicted by the prior art. According to Horizon, the
prior art reflects that the field of topical pharmaceutical
formulations is complex and unpredictable. And to arrive
at the formulation recited in claim 12 of the ’913 patent,
Horizon maintains that a POSITA would have had to:
(1) increase the diclofenac concentration from 1.5%
to exactly 2%, (2) increase the concentration of ethanol from 11% to exactly the range of 23–29%, (3)
add a thickening agent, (4) choose the thickening
agent to be HPC, (5) identify the concentration of
HPC to be exactly 2.5%, (6) select a viscosity range
of between 500 and 5000 cps, and then (7) decide
not to change the concentrations of DMSO or propylene glycol, but instead (8) remove or reduce glycerin and/or water to account for the increases in
diclofenac, ethanol and thickening agent concentrations and still total 100%, and the [POSITA]

Appx. 11

Case: 17-2149

12

Document: 81

Page: 12

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

would also have had to change the method of administration from 3–4 times per day to twice a day
[despite knowing that increasing viscosity makes it
harder for drug molecules to penetrate the skin.]
J.A. 15921–22.
Trial began on March 21, 2017, and continued until
March 30, 2017. The parties filed post-trial submissions on
April 20, 2017.
On May 12, 2017, the district court found that Actavis
had not shown, by clear and convincing evidence, that
claim 12 of the ’913 patent is invalid for obviousness. On
May 22, 2017, the district court entered a final judgment
consistent with its holdings and conclusions in the Markman order, the summary-judgment order, and the posttrial findings of fact and conclusions of law. Since claim 12
of the ’913 patent was found to be nonobvious and Actavis
had stipulated to infringement of that claim if it was
deemed not invalid at trial, the district court ordered that
Actavis be enjoined from engaging in the commercial use,
offer for sale, or sale of its ANDA product until the expiration of the ’913 patent.
Horizon appeals and Actavis cross-appeals the district
court’s final judgment. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
DISCUSSION
We first address Horizon’s appeal and then Actavis’s
cross-appeal.
I. Horizon’s Appeal
Horizon’s appeal proceeds on two fronts. First, Horizon
contests the district court’s holding on claim construction
that the terms “impurity A”; “degrades at less than 1% over
6 months”; and “consisting essentially of” are indefinite.
Second, Horizon challenges the district court’s holding, on

Appx. 12

Case: 17-2149

Document: 81

Page: 13

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

13

summary judgment, that Actavis’s ANDA label did not induce infringement. For the reasons below, we affirm.
A. Indefiniteness
We review indefiniteness determinations de novo. Interval Licensing LLC v. AOL, Inc., 766 F.3d 1364, 1370
(Fed. Cir. 2014). A claim is invalid for indefiniteness if its
language, read in light of the specification and prosecution
history, “fail[s] to inform, with reasonable certainty, those
skilled in the art about the scope of the invention.” Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 901
(2014). General principles of claim construction apply to
indefiniteness allegations. Biosig Instruments, Inc. v. Nautilus, Inc., 783 F.3d 1374, 1377–78 (Fed. Cir. 2015). Accordingly, we review a district court’s determinations of
subsidiary facts based upon extrinsic evidence for clear error, and those based upon intrinsic evidence (the patent
claims, specification, and prosecution history) de novo. Id.
The district court found that a POSITA would not have
understood, with reasonable certainty, the scope of the
claims reciting (1) “impurity A,” (claim 4 of the ’913 patent); 4 (2) a formulation that “degrades at less than 1% over
6 months” (asserted claims of the ’613 patent and claims
10–11 and 19 of the ’591 patent); and (3) a formulation
“consisting essentially of” specified ingredients (asserted
claims of the ’838, ’304, ’305, and ’784 patents and claims
12–15, 17, 19, and 24–25 of the ’591 patent). It thus held
that those claims were indefinite. We address each of those
conclusions in turn.

As noted above, claim 12 of the ’913 patent proceeded to trial. Of the asserted claims of the ’913 patent,
only claim 4 was implicated by the district court’s claim
construction and indefiniteness determination.
4

Appx. 13

Case: 17-2149

14

Document: 81

Page: 14

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

1. “Impurity A”
Claim 4 of the ’913 patent recites a “topical formulation
produc[ing] less than 0.1% [of] impurity A after 6 months
at 25° C[] and 60% humidity.” ’913 patent col. 30 ll. 22–24.
The district court concluded that “impurity A” is indefinite
because a POSITA would not know, with reasonable certainty, the identity of the substance as claimed. We agree.
The term “impurity A” only appears in claim 4 and Example 6 of the ’913 patent. Example 6 examines “the stability of the compositions of the present invention . . . at
room temperature over a six month period.” ’913 patent
col. 25 ll. 36–38. To do so, the example refers to a study
where samples were placed into sealed plastic screw cap
bottles and then stored at 25°C and 60% humidity for six
months. Id. col. 25 ll. 47–49. After six months of storage,
“the samples were tested for impurities by high performance liquid chromatography (HPLC).” Id. col. 25 ll. 49–
51.
According to Example 6, this test revealed two unexpected findings: (1) that the composition of the invention
contained a higher concentration of the active agent while
resulting in a “lower concentration of a degradation impurity”; and (2) “that compositions using hydroxypropylcellulose (HPC) as the gelling agent had a significantly lower
quantity of this impurity as compared to compositions
made using carbomer gelling agents.” Id. col. 25 ll. 38–46.
In discussing the results of the study, the example refers to
“an impurity, termed ‘impurity A,’ [which] was seen to
elute at about 6.6 minutes in varying amounts for the various [tested] compositions.” Id. col. 25 ll. 54–56. Table 13

Appx. 14

Case: 17-2149

Document: 81

Page: 15

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

15

shows the percentage of “impurity A” in relation to the
tested compositions:

Id. col. 25 ll. 57–66.
The example goes on to remark that the appearance of
“a lower percentage of ‘impurity A’” in the formulation
“containing 3.5% HPC shows a higher degree of stability.”
Id. col. 26 ll. 1–5. It also states that the “reduction in the
level of impurity A” in the HPC gel formulation, as compared to the formulation containing 0.9% Carbopol, shows
that the former “is more stable than” the latter. Id. col. 26
ll. 7–11. Because of that, it concludes that “the present invention provides improved stability,” which is evidenced by
the “degrad[ation of] less than 0.034% or 0.09%” over the
six-month period. Id. col. 26 ll. 11–16. Lastly, the example
notes that “the amount of ‘impurity A’ found [was] . . . well
below [the] limits that would require additional nonclinical
testing of the impurity.” Id. col. 26 ll. 16–19.
Although the specification does not define “impurity
A,” Horizon argues that a POSITA would understand the
term to mean “USP Related Diclofenac Compound A.”
(“USP Compound A”). According to Horizon, a POSITA
versed in the pertinent prior art would be able to ascertain
the meaning of “impurity A” based on the intrinsic evidence. It is undisputed that the intrinsic evidence does not

Appx. 15

Case: 17-2149

16

Document: 81

Page: 16

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

explicitly refer to USP Compound A, or its chemical formulation, in relation to “impurity A.” Still, Horizon maintains
that, consulting the available pharmacopeias at the time, a
POSITA would know “impurity A” refers to a specific impurity of diclofenac sodium. Horizon posits that because
the specification refers to “impurity A” as a degradation of
diclofenac sodium, which is the only component of the inventive formulation with a known impurity, a POSITA
would know this term refers to “USP Related Diclofenac
Compound A RS.”
Actavis argues that the specification does not provide
any clues as to the identity of “impurity A,” which implies
that “impurity A” is an unknown impurity. According to
Actavis’s expert, a POSITA reading the specification would
read “impurity A” as referring to an unknown impurity because the specification: (a) does not disclose the chemical
name of the impurity, which would be expected if such were
known; (b) uses quotes to refer to “impurity A,” suggesting
that it is not the formal name of a known impurity; and (c)
justifies not conducting additional tests to identify the impurity merely because it occurs in low amounts. Actavis
contends that the only relevant disclosure in the specification about “impurity A” is in relation to Example 6. But,
citing to its expert’s declaration, Actavis maintains that
the information in Example 6 is insufficient to allow a
POSITA to determine the identity of “impurity A.” For instance, Actavis’s expert opined that the specification offers
no information about the HPLC procedure used, including
the column type, mobile solvent, and temperature used for
the HPLC analysis reported. Moreover, Actavis contends
that Example 6’s observation that the amount of “impurity
A” is so low that no “additional nonclinical testing” is required implies further testing was necessary to ascertain
the identity of “impurity A.”
As to Horizon’s reliance on pharmacopeias, Actavis argues that the district court did not clearly err in rejecting
Horizon’s view on what a POSITA would have surmised

Appx. 16

Case: 17-2149

Document: 81

Page: 17

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

17

from those pharmacopeias. Actavis points out that the
specification never mentions USP Diclofenac Related Compound A RS, which is a degradation of the active ingredient. Actavis also states that the claims refer to the
degradation of the entire formulation—including other excipients (inactive ingredients)—as opposed to the degradation of the diclofenac sodium, the active ingredient. Actavis
argues that even in light of the pharmacopeias, there is
considerable doubt as to whether a POSITA would read
“impurity A” to mean an impurity of the formulation as opposed to that of the active ingredient.
We find no error in the district court’s conclusion that
“impurity A” is indefinite. First, we look to the language of
the claims to evaluate if the meaning of “impurity A” is reasonably clear. Berkheimer v. HP Inc., 881 F.3d 1360, 1363
(Fed. Cir. 2018) (“We look first to the language of the claim
to determine whether the meaning of [the term] is reasonably clear.”). Claim 4 of the ’913 patent depends upon claim
1. Claim 1 recites:
1. A topical formulation comprising:
diclofenac sodium present at 2% w/w;
DMSO present at about 40 to about 50%
w/w;
ethanol present at 23–29% w/w;
propylene glycol present at 10–12% w/w;
hydroxypropyl cellulose; and
water to make 100% w/w,
wherein the formulation has a viscosity of
500–5000 centipoise.
’913 patent col. 30 ll. 9–17. Claim 4 then recites the topical
formulation of claim 1, wherein such formulation “produces
less than 0.1% impurity A after 6 months at 25° C[] and

Appx. 17

Case: 17-2149

18

Document: 81

Page: 18

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

60% humidity.” Id. col. 30 ll. 22–24. Although Horizon attempts to tie “impurity A” to diclofenac sodium, Actavis is
correct to point out that the claims do not support such a
result. Claim 4 refers to the entire topical formulation of
claim 1, which includes several other excipients. The
claims thus do not make clear that “impurity A” refers to
an impurity of diclofenac sodium.
Looking beyond the language of the claims, it is also
undisputed that the written description contains no references to USP Compound A or its chemical name. Indeed,
Horizon does not cite to any part of the specification, the
claims, or the prosecution history that defines or directly
connects “impurity A” to USP Compound A. The only part
of the specification that uses the term “impurity A” is Example 6, which contains “[t]he only identity information
provided for ‘impurity A.’” J.A. 9. That information consists of “retention times derived from a high performance
liquid chromatography (‘HPLC’).” Id. The specification,
however, is devoid of other information about the conditions of the HPLC experiment, such as the column, the mobile phase, and the flow rate. Thus, the written description
provides no clue as to the identity of “impurity A.”
Next, we turn to extrinsic evidence. Horizon attempted
to connect “impurity A” to USP Compound A through pharmacopoeias and its expert’s opinion. The district court considered that evidence but found that Horizon’s expert did
not explain why a POSITA would know that the HPLC test
in Example 6 was undertaken using a pharmacopoeia chromatographic system. The district court understood this to
mean that the basis upon which Horizon’s entire argument
rests—that a POSITA familiar with pharmacopoeias would
understand “impurity A,” as used in Example 6, to be USP
Compound A—is incorrect. We agree.
The district court emphasized that none of the “references relied upon by [Horizon’s expert] . . . that use [a]
pharmacopoeia chromatographic system omit the details of

Appx. 18

Case: 17-2149

Document: 81

Page: 19

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

19

the HPLC experiment . . . or identify USP Compound A by
anything other than its actual chemical formula and/or
structure.” J.A. 11. Put differently, because the specification omits the details of the HPLC experiment—such as the
column, the mobile phase, and the flow rate—a POSITA
faced with this specification would not reasonably presume
that Example 6 was undertaken using a pharmacopoeia
chromatographic system. This outcome undermines Horizon’s reliance on the pharmacopoeias to extrapolate meaning into “impurity A.”
We see no clear error in the district court’s determination, based upon the extrinsic evidence, that “impurity A”
is indefinite when used in the context of Example 6, which
lacks sufficient information about the HPLC procedure to
enable a POSITA to ascribe meaning to “impurity A” with
reasonable certainty. See Eli Lilly & Co. v. Teva Parenteral
Medicines, Inc., 845 F.3d 1357, 1371–72 (Fed. Cir. 2017)
(finding that the district court did not clearly err in determining, based on extrinsic evidence, what a POSITA would
understand “vitamin B12” to mean in a medical context);
Akzo Nobel Coatings, Inc. v. Dow Chem. Co., 811 F.3d 1334,
1343–44 (Fed. Cir. 2016) (finding that the district court did
not clearly err in determining, based on extrinsic evidence,
that a POSITA would measure viscosity at room temperature if no other temperature is specified); Berkheimer, 881
F.3d at 1363–64 (affirming district court’s conclusion that
“minimal redundancy” limitation was indefinite because
the subsidiary finding of fact that a POSITA would not
have known what the term meant as used in claim was not
clearly erroneous). To be clear, we do not hold that a reference to an impurity is indefinite in all contexts, only that
on this record, the term “impurity A” is indefinite.

Appx. 19

Case: 17-2149

20

Document: 81

Page: 20

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

2. “Degrades”
Claims 1–5, 9–19, and 22–24 of the ’613 patent, and
claims 10–11 and 19 of the ’591 patent, recite a topical formulation that “degrades [by/at] 5 less than 1% over 6
months” (the “degrades” term). 6 ’613 patent col. 27 l. 7–col.
28 l. 55; ’591 patent col. 27 l. 6–col. 28 l. 21. The district
court found this term indefinite because the specification
did not identify the means of degradation. We agree.
The district court’s finding that the claims reciting the
“degrades” term are indefinite follows from the indefiniteness determination about “impurity A.” This is so because
Horizon’s proposed construction for the “degrades” term
was “[l]ess than 1% of Impurity A (USP Diclofenac Related
Compound A RS) present in a formulation sample after the
sample was maintained at 25°C and 60% humidity for 6
months.” J.A. 12, 883. Since “impurity A” is indefinite, it
logically follows that another term, such as the “degrades”
term, which relies on “impurity A” for its construction,
must also be indefinite. Based on the district court’s indefiniteness determination about “impurity A,” which we affirm, we conclude that its finding about the “degrades”
term should also be affirmed.
3. “Consisting Essentially Of”
Several of the claims in the formulation patents recite,
either directly (via independent claims) or indirectly (via
dependent claims), a formulation “consisting essentially of”
The ’613 patent recites “degrades by” while the ’591
patent recites “degrades at.”
6
Claim 24 of the ’613 patent recites a formulation
that degrades by less than “0.5% over 6 months.” ’613 patent col. 28 ll. 50–51.
5

Appx. 20

Case: 17-2149

Document: 81

Page: 21

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

21

various ingredients. 7 Claim 49 of the ’838 patent is illustrative. It recites:
49. A topical formulation consisting essentially of:
1–2% w/w diclofenac sodium;
40–50% w/w DMSO;
23–29% w/w ethanol;
10–12% w/w propylene glycol;
hydroxypropyl cellulose; and
water to make 100% w/w, wherein the topical formulation has a viscosity of 500–5000
centipoise.
’838 patent col. 30 ll. 60–67 (emphasis added).
The dissent argues that the claimed formulation
cannot be indefinite in light of the expressly listed ingredients of the invention. Dissent Op. at 5. The dissent’s position, however, would render the claim meaningless because
it would have us read the term “essentially” out of the
phrase “consisting essentially of,” resulting in the separate
and distinct claim phrase, “consisting of.” This reading
would be contrary to the well-established “principle that
claim language should not [be] treated as meaningless.”
Bicon, Inc. v. Straumann Co., 441 F.3d 945, 951 (Fed. Cir.
2006); Playtex Prods., Inc. v. Procter & Gamble Co., 400
F.3d 901, 908 (Fed. Cir. 2005) (rejecting the district court’s
construction of the claim because it “reads out the essence
of the claim limitation ‘substantially flattened’ as it

The relevant claims of the formulation patents are
claims 49–52 and 55–61 of the ’838 patent; claims 12–15,
17, 19, and 24–25 of the ’591 patent; claims 2–5 and 8–11
of the ’304 patent; claims 2–5 and 9–12 of the ’305 patent;
and claims 2–5 and 9–12 of the ’784 patent.
7

Appx. 21

Case: 17-2149

22

Document: 81

Page: 22

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

equates ‘flattened’ with ‘flat’”); Application of Sabatino,
480 F.2d 911, 913 (CCPA 1973). Here, the dissent reads
out the term “essentially” so as to render the claim term to
“consists of” or simply “consists.”
The phrase “consisting essentially of” has a distinct
meaning within our jurisprudence. It is a transition
phrase often used to signal a partially open claim. PPG
Indus., 156 F.3d at 1354. The phrase serves as a middle
ground between closed-ended claims using the phrase “consisting of” and open-ended claims using the phrase “comprising.” Id.; AK Steel Corp. v. Sollac & Ugine, 344 F.3d
1234, 1239 (Fed. Cir. 2003). Accordingly, a drafter will generally include the phrase “consisting essentially of” before
(a) a list of ingredients when dealing with a composition
claim, or (b) a series of steps when dealing with a process
claim. PPG Indus., 156 F.3d at 1354. By doing so, “the
drafter signals that the invention necessarily includes the
listed ingredients [but] is open to unlisted ingredients that
do not materially affect the basic and novel properties of
the invention.” Id. Put differently, “[t]he phrase ‘consisting essentially of’ . . . permit[s] inclusion of components not
listed in the claim, provided that they do not ‘materially
affect the basic and novel properties of the invention.’” AK
Steel, 344 F.3d at 1239.
In light of our case law, the district court considered
“consisting essentially of” in accordance with its legal
meaning: “consisting of only the specified materials and
those that do not materially affect the basic and novel properties of the claimed invention.” J.A. 17. The parties do
not dispute the legal meaning adopted by the district court
about the phrase “consisting essentially of.” Instead, the
parties’ dispute focuses on the basic and novel properties of
the formulation patents. These properties are implicated
by virtue of the phrase “consisting essentially of,” which allows unlisted ingredients to be added to the formulation so
long as they do not materially affect the basic and novel
properties.

Appx. 22

Case: 17-2149

Document: 81

Page: 23

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

23

The district court held that the specification of the formulation patents identified five basic and novel properties:
(1) better drying time; (2) higher viscosity; (3) increased
transdermal flux; (4) greater pharmacokinetic absorption;
and (5) favorable stability. J.A. 23. Although Actavis
maintains that the specification does not identify these
characteristics as important enough to be considered basic
and novel properties, we are unpersuaded.
The specification adequately identifies each of these
properties by separate subheadings in the section titled
“Characteristics of the Gel Formulation.” ’838 patent col.
9 l. 1–col. 10 l. 47. That section includes five subheadings:
(a) “Transdermal Flux”; (b) “Viscosity”; (c) “Stability”; (d)
“Drying Time”; and (e) “Pharmacokinetics.” Id. Each subheading not only identifies the specific characteristic but
also includes relevant discussion about its importance.
The specification further highlights these features as advantageous over prior art, stating that the inventive formulation “display[s] a better drying time, higher viscosity,
increased transdermal flux, and greater pharmacokinetic
absorption,” in addition to providing other advantages such
as “favorable stability.” Id. col. 4 ll. 21–32. With these particular aspects noted, the specification then states that the
inventive formulation “provide[s] superior means for delivery of diclofenac sodium through the skin for the treatment
of osteoarthritis.” Id. col. 4 ll. 36–39. The district court
thus correctly concluded that the intrinsic record identifies
these characteristics as the basic and novel properties.
Next, we turn to whether the Nautilus definiteness
standard applies to the basic and novel properties of an invention. In Nautilus, the Supreme Court held that “a patent is invalid for indefiniteness if its claims, read in light
of the specification delineating the patent, and the prosecution history, fail to inform, with reasonable certainty,
those skilled in the art about the scope of the invention.”
572 U.S. at 901. The district court evaluated the basic and

Appx. 23

Case: 17-2149

24

Document: 81

Page: 24

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

novel properties under this definiteness standard. Horizon
maintains that was legal error.
Horizon argues that the Nautilus definiteness standard focuses on the claims and therefore does not apply to
the basic and novel properties of the invention. This argument, however, is misguided. By using the phrase “consisting essentially of” in the claims, the inventor in this case
incorporated into the scope of the claims an evaluation of
the basic and novel properties. The use of “consisting essentially of” implicates not only the items listed after the
phrase, but also those steps (in a process claim) or ingredients (in a composition claim) that do not materially affect
the basic and novel properties of the invention. Having
used the phrase “consisting essentially of,” and thereby incorporated unlisted ingredients or steps that do not materially affect the basic and novel properties of the invention,
a drafter cannot later escape the definiteness requirement
by arguing that the basic and novel properties of the invention are in the specification, not the claims. Indeed, this
contravenes the legal meaning associated with the phrase
“consisting essentially of.” And a holding to the contrary
would promote the innovation-discouraging “zone of uncertainty” that the Supreme Court has warned against. See
Nautilus, 572 U.S. at 911 (rejecting the “not amenable to
construction or insolubly ambiguous” definiteness standard in favor of one that fosters the public-notice function of
the definiteness requirement); United Carbon Co. v. Binney
& Smith Co., 317 U.S. 228, 236 (1942) (“The statutory requirement of particularity and distinctness in claims is met
only when they . . . clearly circumscribe what is foreclosed
from future enterprise. A zone of uncertainty which enterprise and experimentation may enter only at the risk of infringement claims would discourage invention only a little
less than unequivocal foreclosure of the field.”). Notably,
the phrase “consisting essentially of” is not per se indefinite. Indeed, a patentee can reap the benefit of claiming
unnamed ingredients and steps by employing the phrase

Appx. 24

Case: 17-2149

Document: 81

Page: 25

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

25

“consisting essentially of” so long as the basic and novel
properties of the invention are definite.
Horizon attempts to cast the issue about the bounds of
the basic and novel properties as one that should not be
addressed at the claim construction stage, arguing this
court considers those properties solely as factual determinations of validity and infringement. See Appellant Br. 41–
42. But Horizon’s view about the role of the basic and novel
properties disregards one of the cornerstones of the definiteness requirement: to afford clear notice of what is being
claimed so as to apprise the public of what is still open to
them. Nautilus, 572 U.S. at 909.
The Supreme Court has repeatedly emphasized why
the definiteness requirement demands clear notice of what
is being claimed. In Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., the Court explained:
The patent laws “promote the Progress of Science
and useful Arts” by rewarding innovation with a
temporary monopoly. U.S. Const., Art. I, § 8, cl. 8.
The monopoly is a property right; and like any
property right, its boundaries should be clear. This
clarity is essential to promote progress, because it
enables efficient investment in innovation. A patent holder should know what he owns, and the
public should know what he does not. For this reason, the patent laws require inventors to describe
their work in “full, clear, concise, and exact terms,”
35 U.S.C. § 112, as part of the delicate balance the
law attempts to maintain between inventors, who
rely on the promise of the law to bring the invention forth, and the public, which should be encouraged to pursue innovations, creations, and new
ideas beyond the inventor’s exclusive rights.
535 U.S. 722, 730–31 (2002). Accordingly, “[t]he limits of a
patent must be known” because the goal of the definiteness
requirement is “to guard against unreasonable advantages

Appx. 25

Case: 17-2149

26

Document: 81

Page: 26

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

to the patentee and disadvantages to others arising from
uncertainty.” Gen. Elec. Co. v. Wabash Appliance Corp.,
304 U.S. 364, 369 (1938). That is why “inventor[s] must
inform the public [about] the limits of the monopoly asserted, [i.e., the patented invention,] so that it may be
known which features may be safely used or manufactured
without a license and which may not.” Id. (internal quotation marks omitted).
Having determined that the basic and novel properties
of an invention are part of the scope of the claims in this
case, it follows that those basic and novel properties, “when
read in light of the specification and the prosecution history, must provide objective boundaries for those of skill in
the art.” See Interval Licensing, 766 F.3d at 1371; see also
Datamize, LLC v. Plumtree Software, Inc., 417 F.3d 1342,
1350 (Fed. Cir. 2005) (“Some objective standard must be
provided in order to allow the public to determine the scope
of the claimed invention.”). That the basic and novel properties may not be precise does not automatically render
them indefinite. See Seattle Box Co. v. Indus. Crating &
Packing, Inc., 731 F.2d 818, 826 (Fed. Cir. 1984). Instead,
the basic and novel properties must be sufficiently definite
so as to inform, with reasonable certainty, a POSITA of
their scope within the context of the invention. Nautilus,
572 U.S. at 901.
Two questions arise when claims use the phrase “consisting essentially of.” One question focuses on definiteness: what are the basic and novel properties of the
invention? The other question focuses on infringement:
does a particular unlisted ingredient materially affect
those basic and novel properties? There certainly may be
circumstances where it will be up to a fact-finder to determine whether an unlisted ingredient has a material effect
on the basic and novel properties of the invention. Our
analyses in PPG Industries and AK Steel of patents using
the term “consisting essentially of” in the claims is instructive as to this distinction.

Appx. 26

Case: 17-2149

Document: 81

Page: 27

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

27

In PPG Industries, we evaluated a patent directed to a
green-tinted glass with specific light transmittance characteristics. 156 F.3d at 1352. The patent claimed that the
composition of the glass “consist[ed] essentially of” a list of
chemical ingredients. Id. Iron sulfide was not listed in the
claims and was present in the accused product. Id. at 1354.
The alleged infringer defended on that basis. At trial, since
the claims used the phrase “consisting essentially of,” the
district court instructed the jury that the claimed glass included other ingredients not specifically identified in the
claim so long as those unlisted ingredients did not have a
material effect on the basic and novel properties of the
glass. Id. at 1354. The parties had agreed that the basic
and novel properties of the claimed glass were color, composition, and light transmittance. Id. We held that, because “the patent is silent about iron sulfide and about
what constitutes a material effect on the properties of the
glass,” it was proper for “the jury to determine whether the
amounts of iron sulfide in [the accused glass] have a material effect on the basic and novel characteristics of the
glass.” Id. at 1357.
In AK Steel, we dealt with patents directed to hot-dip
aluminum-coated stainless steel. 344 F.3d at 1236. One of
the patents at issue used the phrase “consisting essentially
of aluminum” in the claims. Id. at 1237. The district court
construed the phrase to permit only up to about 0.5% silicon. Id. at 1238. Since the accused product included aluminum and 8.0%–8.5% silicon, the district court granted
summary judgment of noninfringement. Id. We affirmed,
noting that the patent clearly identified “good wetting” as
the goal of the invention and as the distinguishing feature
from the prior art. Id. at 1239–40. This was a basic and
novel property. The specification also stated that having
silicon in excess of 0.5% by weight in an aluminum coating
did not achieve the goal of “good wetting.” See id. In other
words, 0.5% silicon by weight served as a threshold, and

Appx. 27

Case: 17-2149

28

Document: 81

Page: 28

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

anything above it would not achieve the goal of “good wetting.” We held that PPG Industries did not compel the district court to submit the issue of whether more than 0.5%
silicon materially alters the basic and novel properties of
the invention to the jury. Id. at 1240–41. We explained
that the specification in PPG Industries was silent about
iron sulfide and what constitutes a material effect on the
properties of the glass. Id. at 1240. But, unlike PPG Industries, the specification at issue in AK Steel was far from
silent about silicon and its material effect on the properties
of the invention, particularly where the specification identified having silicon in excess of 0.5% by weight in aluminum coating as contravening the goal of “good wetting.” Id.
The district court was thus correct to construe the claims
as not encompassing steel coated with aluminum containing more than about 0.5% silicon, and then grant summary
judgment of noninfringement because the accused product
contained 8.0%–8.5% silicon. Id. at 1240–41.
In relation to this case, the crucial teachings from both
PPG Industries and AK Steel is that courts evaluating
claims that use the phrase “consisting essentially of” may
ascertain the basic and novel properties of the invention at
the claim construction stage, and then consider if the intrinsic evidence establishes what constitutes a material alteration of those properties. The definiteness inquiry
focuses on whether a POSITA is reasonably certain about
the scope of the invention. Indeed, if a POSITA cannot ascertain the bounds of the basic and novel properties of the
invention, then there is no basis upon which to ground the
analysis of whether an unlisted ingredient has a material
effect on the basic and novel properties. To determine if an
unlisted ingredient materially alters the basic and novel
properties of an invention, the Nautilus definiteness standard requires that the basic and novel properties be known
and definite. Accordingly, in this case, the district court
did not err in considering the definiteness of the basic and
novel properties during claim construction.

Appx. 28

Case: 17-2149

Document: 81

Page: 29

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

29

Lastly, we address whether the district court erred in
determining that the basic and novel property of “better
drying time” was indefinite. We conclude that it did not.
The section of the specification listing the basic and
novel properties of the invention includes a subheading for
“Drying Time.” ’838 patent col. 10 l. 5. Under that subheading, the specification explains that the compositions of
the invention “dry quicker” than previously disclosed compositions. Id. col. 10 ll. 6–10. In support, the specification
discloses results from two tests: an in vivo test and an in
vitro test.
As to the in vivo test, the specification states that “[t]he
drying time difference is evident when equal amounts of
the two products are tested on opposite limbs. Within
thirty (30) minutes the compositions of the invention are
almost completely dry whereas a significant amount of the
previously described liquid formulation remains.” Id. col.
10 ll. 15–21. No other data is provided about the test.
As to the in vitro test, the specification notes that “drying times” were compared “more quantitatively” by conducting side-by-side comparisons. Id. col. 10 ll. 22–23. To
do so, the inventors “measured the residual weight of formulations by placing equal amounts (100 mg) of a prior art
formulation and compositions of the invention in weighing
dishes . . . and weighing the amount remaining over time.”
Id. col. 10 ll. 23–27. According to the specification, under
this methodology “a difference is immediately noticeable,
and becomes dramatically different by 4 hours.” Id. col. 10
ll. 27–29. The in vitro test corresponds with Example 5,
and Table 12 reflects the data from the test. Example 5,
entitled “Comparison of Drying Time/Residual Weight of a
Comparative Liquid Formulation Solution Versus the Corresponding Gel,” reveals that the prior art formulation was
compared to three gel compositions which are embodiments of the invention. See id. col. 21 l. 38–col. 22 l. 49.

Appx. 29

Case: 17-2149

30

Document: 81

Page: 30

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

Table 12 provides information about the percentage of the
remaining weight as follows:

Id. col. 23 ll. 17–27.
The district court found that the two different methods
for evaluating “better drying time” do not provide consistent results at consistent times. J.A. 26. On the one
hand, the in vivo test noted that after thirty minutes the
compositions of the invention are “almost completely dry”
while a “significant amount” of the prior art formulation
remained. J.A. 24–27. But on the other hand, when the
results of the in vitro test are reviewed at the thirty-minute
mark, only two of the formulations exhibit “better drying
time.” Id. As reflected in Table 12, at thirty minutes the
prior art liquid comparative showed 95.6% of its weight remaining, whereas the “F971” inventive formulation
showed 100% of its weight remaining. J.A. 25–26. After
highlighting these inconsistencies, the district court noted
that the prosecution history failed to inform as to the appropriate time frame under which to evaluate the drying
rate. J.A. 27. The district court also found persuasive the
testimony of Actavis’s expert that a POSITA would not
know under what standard to evaluate the drying rate. Id.
Accordingly, the district court concluded that the basic and

Appx. 30

Case: 17-2149

Document: 81

Page: 31

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

31

novel property of “better drying rate” was indefinite, and
consequently, that the term “consisting essentially of” was
likewise indefinite. Id.
On appeal, Horizon argues that the district court improperly conflated “drying rate” with “better drying time.”
According to Horizon, “drying rate” refers to “how quickly
[a formulation] dries” while “drying time” refers to “how
long [a formulation] takes to dry.” Appellant Br. 49. In
light of this distinction, Horizon maintains that the specification’s descriptions of the results of the in vivo test and
in vitro test are not in conflict. Horizon asserts that a
POSITA would understand that the time points earlier
than 4 hours in the in vitro test do not reflect drying time,
and instead, they reflect drying rates that can change over
time. Horizon argues that the district court failed to comprehend the differences between the two tests.
In response, Actavis contends that the patent uses the
concepts of “drying time” and “drying rate” interchangeably, with both terms apparently intended to refer to the residual weight of the formulation left as time progresses.
But Horizon challenges that assertion, stating that the
“specification differentiates these two concepts, referencing
‘drying time’ as a characteristic of the inventive formulations, and then separately discussing drying rate in relation to the speed (‘more rapid,’ ‘quicker,’ or ‘faster’) of
drying.” Appellant Reply Br. 61. We find Horizon’s proposed distinction unpersuasive in light of the specification.
Example 5, the in vitro test, compared “drying time” in
relation to the residual weight of a given formulation. Its
stated purpose was to “evaluate . . . drying time.” ’838 patent col. 21 l. 45. Throughout Example 5, the specification
tethers a “dryness” evaluation to the residual weight of a
formulation in order to show the improved characteristic
over the prior art. See id. col. 22 ll. 7–10 (stating that “one
would have expected the liquid formulation to lose weight

Appx. 31

Case: 17-2149

32

Document: 81

Page: 32

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

more quickly, and thus have a shorter drying time”). Beyond that, the basic point raised by the district court remains: the results are inconsistent. Referring to the
results in Example 5, the specification states that “even
within the first five minutes, the three gel formulations displayed more rapid drying than the liquid formulation.” Id.
col. 21 ll. 63–65 (emphasis added). Regardless of the distinction Horizon attempts to draw, this statement stands
for the proposition that, at the five-minute mark, the three
inventive formulations are drier than the prior art formulation. So, it follows that according to the specification’s
clear language, the inventive formulations displayed better
drying time when compared at five minutes. But, as the
district court pointed out, the data is inconsistent with the
specification’s statement about better drying at five
minutes (as stated in the in vitro test) or at thirty minutes
(as compared to the in vivo test). At both of those marks,
Table 12 reflects that inventive gel “F971” retained a larger
percentage weight than the prior art. Only at the four-hour
mark does the inventive gel “F971” reflect a lower percentage than the prior art comparator.
“[A] claim is indefinite if its language might mean several different things and no informed and confident choice
is available among the contending definitions.” Media
Rights Techs., Inc. v. Capital One Fin. Corp., 800 F.3d
1366, 1371 (Fed. Cir. 2015) (internal quotations marks
omitted). Here, an evaluation of the specification reveals
inconsistencies about the basic and novel property of “better drying time.” Two tests are disclosed, but those tests
do not provide consistent results upon which a POSITA
would be able to evaluate “better drying time.” Consequently, we conclude that the district court did not err in
its determination that a POSITA would not know under
what standard to evaluate the drying rate of the invention,
thus rendering the basic and novel property of “better drying rate” indefinite.

Appx. 32

Case: 17-2149

Document: 81

Page: 33

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

33

In sum, we hold that the district court did not err in:
(a) defining the basic and novel properties of the formulation patents; (b) applying the Nautilus definiteness standard to the basic and novel properties of the formulation
patents; and (c) concluding that the phrase “consisting essentially of” was indefinite based on its finding that the
basic and novel property of “better drying time” was indefinite on this record. To be clear, we do not hold today that
so long as there is any ambiguity in the patent’s description
of the basic and novel properties of its invention, no matter
how marginal, the phrase “consisting essentially of” would
be considered indefinite. Nor are we requiring that the patent owner draft claims to an untenable level of specificity.
We conclude only that, on these particular facts, the district court did not err in determining that the phrase “consisting essentially of” was indefinite in light of the
indefinite scope of the invention’s basic and novel property
of a “better drying time.” 8

The dissent states that “[i]t is hard to imagine a
clearer statement than a list of the ingredients that the
claimed formulation ‘consists essentially of.’” Dissent Op.
at 5. It is not. A clearer statement would be a list of ingredients that the claimed formulation “consists of,” which, as
we previously noted, is a “closed claim” confined to the
listed ingredients or steps in a claim. PPG Indus., 156 F.3d
at 1354.
Here, the patentee, however, chose to use the distinct
and separate phrase, “consisting essentially of.” In so
choosing, the patentee can now assert its claim against
products containing ingredients nowhere listed in the patent claim, an option foreclosed under the phrase “consisting of.” See, e.g., AK Steel, 344 F.3d at 1239 (“consisting
8

Appx. 33

Case: 17-2149

34

Document: 81

Page: 34

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

B. Induced Infringement
We review the district court’s grant of summary judgment de novo. Frolow v. Wilson Sporting Goods Co., 710
F.3d 1303, 1308 (Fed. Cir. 2013) (citing Nicini v. Morra,
212 F.3d 798, 805 (3d Cir. 2000) (en banc)). Summary judgment is appropriate when there are no genuine issues of
material fact and the moving party is entitled to judgment
as a matter of law. Fed. R. Civ. P. 56; Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247–48 (1986). The nonmovant’s
evidence is to be believed and all justifiable inferences are
to be drawn in his favor. Frolow, 710 F.3d at 1308.
The district court granted summary judgment in relation to the asserted claims of the method-of-use patents 9 on
the basis that Horizon failed to show that Actavis’s label
induces a use of its ANDA product that directly infringes
those claims. We review Actavis’s ANDA label in relation
to the asserted claims of the methods-of-use patents to
evaluate if the district court erred in concluding that Actavis’s label does not induce infringement of those particular claims.
Actavis’s ANDA product, diclofenac sodium topical solution 2%, is a generic version of Horizon’s PENNSAID®

essentially of aluminum” asserted against product containing aluminum and silicon). This flexibility afforded to patentee underscores the importance of our holding today:
that when the patentee choses to use the phrase “consisting
essentially of,” the underlying basic and novel properties of
that invention should be sufficiently definite in scope in order to afford clear notice of the claim’s bound. Nautilus,
572 U.S. at 909.
9
Claims 10, 11, 15, and 17 of the ’450 patent, claim
14 of the ’078 patent, and claims 3, 11, and 13 of the ’110
patent.

Appx. 34

Case: 17-2149

Document: 81

Page: 35

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

35

2%. Both products are directed to the treatment of osteoarthritis pain on the knees. In relevant part, Actavis’s label includes the following:
The recommended dose is 2 pump actuations on
each painful knee, 2 times a day. (2)
•

Apply diclofenac sodium topical solution, to
clean, dry skin. (2.1)

•

Dispense 40 mg (2 pump actuations) directly
onto the knee or first into the hand and then
onto the knee. Spread evenly around front, back
and sides of the knee. (2.1)

....
•

Wait until area is completely dry before covering
with clothing or applying sunscreen, insect repellent, cosmetics, topical medications, or other
substances. (2.2)

....
•

Avoid wearing clothing over the diclofenac sodium topical solution-treated knee(s) until the
treated knee is dry.

•

Protect the treated knee(s) from natural and artificial sunlight.

•

Wait until the treated area is dry before applying
sunscreen, insect repellant, lotion, moisturizer,
cosmetics, or other topical medication to the
same knee you have just treated with diclofenac
sodium topical solution.

•

Until the treated knee(s) is completely dry,
avoid skin-to-skin contact between other people
and the treated knee(s).

J.A. 5873, 5876 (emphasis added) (numbers in parentheses
indicating cross references: e.g., 2.1 indicating “general

Appx. 35

Case: 17-2149

36

Document: 81

Page: 36

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

dosing instructions” and 2.2. indicating “special precautions”).
It is undisputed that Actavis’s label is substantially
similar to Horizon’s; the primary difference between the
two labels is that Horizon’s label refers to “PENNSAID” instead of “diclofenac sodium topical solution” or “diclofenac
sodium.”
Turning to the method-of-use patents, claim 10 of the
’450 patent is illustrative of the asserted method-of-use
claims. It recites:
10. A method for applying topical agents to a knee
of a patient with pain, said method comprising:
applying a first medication consisting of a
topical diclofenac preparation to an area of
the knee of said patient to treat osteoarthritis of the knee of said patient, wherein
the topical diclofenac preparation comprises a therapeutically effective amount of
a diclofenac salt and 40–50% w/w dimethyl
sulfoxide;
waiting for the treated area to dry;
subsequently applying a sunscreen, or an
insect repellant to said treated area after
said treated area is dry, wherein said step
of applying a first medication does not enhance the systemic absorption of the subsequently applied sunscreen, or insect
repellant;
and wherein said subsequent application
occurs during a course of treatment of said
patient with said topical diclofenac preparation.
’450 patent col. 73 l. 36–col. 74 l. 10.

Appx. 36

Case: 17-2149

Document: 81

Page: 37

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

37

The district court evaluated Actavis’s label vis-à-vis the
claims of the method-of-use patents and noted that the dispute between the parties centered around the warning in
Actavis’s label to wait until the treated area is dry before
covering it or applying another substance. Because Horizon alleged that the warning in Actavis’s label would induce infringement of its method-of-use patents, the district
court evaluated the claims, stating that Horizon’s claimed
methods provide three sequential instructions. J.A. 52–53.
First, the user applies the medication to the knee. Second,
the user waits for the treated area to dry. And third, the
user subsequently applies sunscreen or insect repellant. 10
With this framework in mind, the district court found that
“Actavis’s proposed label does [no] more than simply permit, rather than require or direct, the post-product application of sunscreen, insect repellant, or a second topical
medication.” J.A. 58. So even if at some point a user applies one of the items claimed in step three of the methodof-use claims to his or her knee, the district court explained
that “permission does not amount to encouragement because those items are just three examples of what a patient
might wish to apply to his knee after treatment, if anything
is to be applied at all.” J.A. 59. The district court thus
concluded that Actavis’s label was insufficient to create a
material dispute of fact as to whether the label suggests an
infringing use. J.A. 59–60.
On appeal, Horizon argues that the district court erred
in finding that Actavis’s labeling did not induce infringement of the method-of-use patents. Horizon maintains
that Actavis’s labeling tracks closely with the asserted
claims, thereby reflecting Actavis’s specific intent to induce

For the ’078 patent, the third step consists of applying a second medication, and for the ’110 patent it consists of applying sunscreen, an insect repellant, or a second
medication. J.A. 53.
10

Appx. 37

Case: 17-2149

38

Document: 81

Page: 38

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

infringement. Although Horizon recognizes that not every
user will need to apply sunscreen, insect repellant, or another topical medication, it contends that, when such need
arises, Actavis’s instruction will lead to an infringing use.
Horizon also points to a warning in Actavis’s labeling that
cautions patients to avoid exposure to natural or artificial
sunlight on the treated knees, 11 arguing this reflects that
application of sunscreen is medically necessary. Lastly,
Horizon contends that material issues of fact preclude summary judgment. Specifically, Horizon cites to its expert’s
testimony and states that the district court should have
viewed it in Horizon’s favor and thus denied Actavis’s motion.
Actavis disputes Horizon’s proposition that there are
material issues of fact that precluded summary judgment.
Actavis argues that its proposed label does not induce infringement because, unlike the method-of-use patents, its
label does not promote the application of a second topical
agent after application of the diclofenac sodium gel. Actavis maintains that its label never affirmatively instructs
the patient to apply anything after the diclofenac sodium
gel; the label merely permits applying a second topical
agent after the patient waits for the diclofenac sodium to
dry. Its label, therefore, does not contain any instruction
that induces infringement. Instead, Actavis states that the
label warns patients that if they choose to apply a second
topical agent, they should take the precaution of waiting

Section 5.14 of Actavis’s labeling, entitled “Sun Exposure,” provides: “Instruct patients to avoid exposure to
natural or artificial sunlight on treated knee(s) because
studies in animals indicated topical diclofenac treatment
resulted in an earlier onset of ultraviolet light-induced skin
tumors. The potential effects of diclofenac sodium topical
solution on skin response to ultraviolet damage in humans
are not known.” J.A. 5881.
11

Appx. 38

Case: 17-2149

Document: 81

Page: 39

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

39

for the diclofenac sodium gel to dry. Because Horizon’s only
evidence of inducement depends upon Actavis’s label, Actavis contends that there are no material issues of fact and
that the district court correctly resolved the matter on summary judgment.
“Whoever actively induces infringement of a patent
shall be liable as an infringer.” 35 U.S.C. § 271(b). To
prove inducement, a plaintiff must present evidence of active steps taken to encourage direct infringement; mere
knowledge about a product’s characteristics or that it may
be put to infringing uses is not enough. Takeda Pharm.
U.S.A., Inc. v. West-Ward Pharm. Corp., 785 F.3d 625, 630–
31 (Fed. Cir. 2015). The focus is not on whether the instructions describe the mode of infringement, but rather on
whether the “instructions teach an infringing use of the device such that we are willing to infer from those instructions an affirmative intent to infringe the patent.” Id. at
631 (emphasis omitted). In ANDA cases, when a plaintiff
attempts to draw intent from the label, we examine
whether the proposed label “encourage[s], recommend[s],
or promote[s] infringement.” Id. Merely describing the infringing use, or knowing of the possibility of infringement,
will not suffice; specific intent and action to induce infringement must be shown. Id.
The patented method here requires three distinct
steps. The user must: (1) apply the inventive formulation,
(2) wait for the area to dry, and (3) apply sunscreen, insect
repellant, or a second topical medication. The instructions
in Actavis’s label, however, only require the first step of
this method, nothing else. Moreover, Actavis’s label is
broader than step three of Horizon’s claimed method. For
example, beyond warning the user about waiting for the
treated area to be completely dry before covering it with
sunscreen, insect repellent, or another topical medication,
Actavis’s label also warns about clothing, cosmetics, lotion,
water, moisturizer, and other substances. J.A. 5873, 5876,
5898. The warning, then, operates in an “if/then” manner:

Appx. 39

Case: 17-2149

40

Document: 81

Page: 40

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

if the user wants to cover the treated area with clothing or
apply another substance over it, then the patient should
wait until the area is dry. J.A. 53. This does not encourage
infringement, particularly where the label does not require
subsequent application of sunscreen, insect repellant, or a
second medication.
We are also unpersuaded by Horizon’s reliance on its
expert’s opinion to maintain that there are material issues
of fact that prevent summary judgment. Horizon concedes
that its expert recognized that not all patients who follow
the instructions in Actavis’s label will engage in an infringing use by applying sunscreen, insect repellant, or a second
medication. See Appellant Br. 29–30. And the “mere existence of direct infringement . . . is not sufficient for inducement.” Takeda, 785 F.3d at 631. Instead, our inquiry
focuses on whether the instructions reflect an “affirmative”
or “specific intent to encourage infringement.” Vita-Mix
Corp. v. Basic Holding, Inc., 581 F.3d 1317, 1329 n.2 (Fed.
Cir. 2009). The district court examined Actavis’s label in
detail and concluded that there can be no material dispute
that the instructions do not reflect specific intent to induce.
The district court found that the label merely provided
guidance to patients about what to do if the patent desired
to have anything come into contact with the knee after application of the medication.
The fact that Actavis’s label does not require subsequent application of other products reflects that the product has “substantial noninfringing uses, [and] intent to
induce infringement cannot be inferred even [if Actavis]
has actual knowledge that some users of its product may
be infringing the patent.” Warner-Lambert Co. v. Apotex
Corp., 316 F.3d 1348, 1365 (Fed. Cir. 2003). Horizon’s evidence, viewed in the light most favorable to it, establishes
that some users might infringe. The evidence, however,
does not establish that “the proposed label instructs users
to perform the patented method.” AstraZeneca LP v. Apotex, Inc., 633 F.3d 1042, 1060 (Fed. Cir. 2010).

Appx. 40

Case: 17-2149

Document: 81

Page: 41

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

41

The district court did not err in granting summary
judgment of noninfringement in Actavis’s favor.
II. Actavis’s Cross-Appeal on Obviousness
After a seven-day bench trial, the district court held
that Actavis did not show, by clear and convincing evidence, that claim 12 of the ’913 patent is invalid for
obviousness. Actavis cross-appeals the nonobviousness determination. We review the ultimate legal conclusion
about obviousness de novo and the underlying factual findings for clear error. Novo Nordisk A/S v. Caraco Pharm.
Labs., Ltd., 719 F.3d 1346, 1354 (Fed. Cir. 2013).
Actavis’s cross-appeal centers around the district
court’s statement that claim 12 of the ’913 patent “was not
a result of routine optimization of PENNSAID®
1.5% . . . because general principles and ranges of permissible concentrations would not have predicted the exact formulation and dosing frequency that resulted in
PENNSAID® 2%.” J.A. 15923 (emphasis added). Actavis
argues that the district court erred by requiring that the
prior art predict the exact formulation of the asserted
claim.
To explain its obviousness theory, Actavis relied on a
stereo receiver analogy drawn by its expert. Under that
analogy, the various components of PENNSAID® 2% are
like bass, treble, fade, and volume, among other things.
Cross-Appellant Br. 69. In the analogy, the knobs of the
stereo receiver correspond to various aspects of the formulation, such as the thickener that adjusts viscosity, the disclofenac sodium concentration that adjusts permeation
rate/absorption, or the glycerine that adjusts drying rate.
According to Actavis, if a POSITA wants to change one aspect of the formulation in a particular way, she may adjust
the knobs upwards or downwards for the parameter corresponding to the desired change.

Appx. 41

Case: 17-2149

42

Document: 81

Page: 42

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

The district court found the analogy to be inconsistent
with the complexity of the art, and more specifically, with
the particular components of the formulation. J.A. 15925.
The district court explained that Actavis’s analogy failed to
“differentiate between a system that allows independent
change of one variable with little or no predictable or material effect on other variables and a system where the
change to one variable must result in changes to the others.” Id. While a drug formulator could be inspired by general knowledge and the prior art to adjust a certain
variable, the district court found that the variables here interacted with each other in unpredictable ways. See id.
The district court credited Horizon’s expert’s (Dr.
Bunge’s) testimony that the inventive formulation was
complex and that a POSITA would be challenged to predict
relative ratios in order to achieve the desired goal of
PENNSAID® 2%. J.A. 15926–27. The district court further highlighted the unpredictability of the results by crediting Dr. Bunge’s testimony that Fick’s law 12—an
established concept about drug permeation—could not predict what happens under the facts of this case, which involve a complex topical formulation that attempts to drive
an active ingredient through human skin (a “formidable
barrier” according to the district court’s findings). J.A.
15929–32.
The district court also found that the combination of
changes to the PENNSAID® 1.5% formulation were not obvious optimizations of result-effective “variables that
would produce a predictable result, particularly as to the
formulation’s absorption, thickness, and drying time.”
“Under Fick’s First Law of Diffusion, a larger concentration of the drug in the topical formulation results in
a larger concentration gradient, and leads to a greater permeation—or flux—rate of the drug through the skin.”
J.A. 15909.
12

Appx. 42

Case: 17-2149

Document: 81

Page: 43

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

43

J.A. 15933. The district court found that the variables involved in this case, including the components of the inventive formulation, interact in an unpredictable or
unexpected way, such that the results emanating into
PENNSAID® 2% were not obvious. J.A. 15933–36. The
district court found that nothing in the prior art allowed a
POSITA to find “the schematic or roadmap to a diclofenac
gel effective at two doses a day.” J.A. 15934. The district
court thus held that “the combination of adjustments
needed to change PENNSAID® 1.5% into PENNSAID® 2%
was not predictable from the prior art.” J.A. 15933.
We hold that the district court did not clearly err in its
factual findings about the lack of predictability in relation
to the changes made to PENNSAID® 1.5% and the teachings from the prior art. In light of the district court’s factual findings, we hold that claim 12 of the ’913 patent was
nonobvious. We thus affirm the district court’s nonobviousness conclusion and its determination that PENNSAID®
2% was not the result of routine experimentation such that
a POSITA would have reasonably predicted the changes
made to PENNSAID® 1.5%.
CONCLUSION
We have considered all remaining arguments but find
them unpersuasive. For the foregoing reasons, we affirm
the judgment of the district court.
AFFIRMED
COSTS
No costs.

Appx. 43

Case: 17-2149

Document: 81

Page: 44

Filed: 10/10/2019

United States Court of Appeals
for the Federal Circuit
______________________
HZNP MEDICINES LLC, HORIZON PHARMA USA,
INC.,
Plaintiffs-Appellants
v.
ACTAVIS LABORATORIES UT, INC.,
Defendant-Cross-Appellant
______________________
2017-2149, 2017-2152, 2017-2153, 2017-2202, 2017-2203,
2017-2206
______________________
Appeals from the United States District Court for the
District of New Jersey in Nos. 1:14-cv-07992-NLH-AMD,
1:15-cv-05025-NLH-AMD, 1:15-cv-06131-NLH-AMD, 1:15cv-06989-NLH-AMD, 1:15-cv-07742-NLH-AMD, 1:16-cv00645-NLH-AMD, Judge Noel Lawrence Hillman.
______________________
NEWMAN, Circuit Judge, concurring-in-part, dissenting-inpart.
This suit was brought pursuant to the Hatch-Waxman
Act, based on Actavis’ ANDA challenge to the HZNP

Appx. 44

Case: 17-2149

2

Document: 81

Page: 45

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

(Horizon) patents on the product PENNSAID® 2%, a formulation of the drug diclofenac sodium for topical application to treat osteoarthritis of the knee. Actavis stated to
the FDA that its generic ANDA composition and method
are within the Horizon patents, and Actavis’ Paragraph IV
certification led to this litigation in which Actavis challenges the validity and infringement of the Horizon patents. Trial was held in the district court.
On the issue of patent validity, the district court held
the composition claims invalid, holding that the claim term
“consisting essentially of” rendered the claims indefinite,
in violation of 35 U.S.C. § 112(b). The panel majority
agrees. The majority also holds that the knowledge of persons of skill in the field of the invention cannot fill any gap
in proving the properties of compositions claimed in the
“consisting essentially of” form. I respectfully dissent from
these departures from long-established law and long-understood practice.
The district court held the method-of-use claims valid
but not infringed. On the issue of infringement of these
claims, Actavis conceded that the instructions in its ANDA
label are identical to the method-of-use claimed in the
Horizon patents. However, the district court held that, except for one claim, Actavis cannot be liable for induced infringement because the user might not follow the
instructions on the label. The panel majority agrees.
Again I respectfully dissent, for this holding is contrary to
statute and precedent.
On Actavis’ cross-appeal, the district court sustained
the validity of claim 12 of U.S. Patent No. 9,066,913 (“the
’913 patent”), and found infringement. The panel majority
sustains that judgment. I join that aspect of the court’s
decision.
I start with brief reference to Actavis’ cross-appeal, for
the court’s correct ruling on claim 12 of the ’913 patent

Appx. 45

Case: 17-2149

Document: 81

Page: 46

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

3

points up the inconsistency and uncertainty spawned by
today’s decision.
I
ACTAVIS’ CROSS-APPEAL
Following is claim 12 of the ’913 patent, shown with the
claims whose subject matter is incorporated by reference:
12. A method for treating pain due to osteoarthritis of a knee of a patient in need thereof, said
method comprising:
administering to the knee a topical formulation
of claim 9,
wherein the administration of the formulation
is twice daily.
9. The topical formulation of claim 8, wherein
the hydroxypropyl cellulose is present at 2.5% w/w.
8. The topical formulation of claim 1, wherein
the DMSO is present at 45.5% w/w.
1. A topical formulation comprising:
diclofenac sodium present at 2% w/w;
DMSO present at about 40 to about 50% w/w;
ethanol present at 23–29% w/w;
propylene glycol present at 10–12% w/w;
hydroxypropyl cellulose; and
water to make 100% w/w,
wherein the formulation has a viscosity of 500–
5000 centipoise.
In the district court the only challenge to validity of claim
12 was on the ground of obviousness. Actavis stipulated to
infringement. I flag the usage “comprising” in claim 1
above, for this is the identical composition for which “consisting essentially of” is today held to invalidate the composition claims on the ground of indefiniteness.

Appx. 46

Case: 17-2149

4

Document: 81

Page: 47

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

II
INDEFINITENESS
The claim definiteness requirement is codified at 35
U.S.C. § 112(b):
§ 112(b) Conclusion.—The specification shall conclude with one or more claims particularly pointing
out and distinctly claiming the subject matter
which the inventor or a joint inventor regards as
the invention.
An illustrative claim held invalid based on the usage “consisting essentially of” is claim 49 of Horizon’s U.S. Patent
No. 8,252,838 (“the ’838 patent”):
49. A topical formulation consisting essentially of:
1–2% w/w diclofenac sodium;
40–50% w/w DMSO;
23–29% w/w ethanol;
10–12% w/w propylene glycol;
hydroxypropyl cellulose; and
water to make 100% w/w, wherein the topical formulation has a viscosity of 500–5000
centipoise.
’838 patent, col. 30, ll. 60–67; Maj. Op. at 4, 21.
The usage “consisting essentially of” is
not a ground of invalidity
The panel majority holds that the phrase “consisting
essentially of” invalidates the composition claims for indefiniteness, Maj. Op. at 33, because the claims are rendered
“open to unlisted ingredients that do not materially affect
the basic and novel properties of the invention,” id. at 22.
The majority holds that “By using the phrase ‘consisting
essentially of’ in the claims, the inventor in this case incorporated into the scope of the claims an evaluation of the
basic and novel properties.” Id. at 24. That is not correct
as a matter of claim construction, it is not the law of

Appx. 47

Case: 17-2149

Document: 81

Page: 48

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

5

patenting novel compositions, and it is not the correct application of section 112(b).
Definiteness of claiming requires that the subject matter for which patent protection is sought is clearly stated in
the claim. See Vitronics Corp. v. Conceptronic, Inc., 90 F.3d
1576, 1582 (Fed. Cir. 1996) (“[W]e look to the words of the
claims themselves . . . to define the scope of the patented
invention.”); Halliburton Energy Servs., Inc. v. M-I LLC,
514 F.3d 1244, 1249 (Fed. Cir. 2008) (“If the meaning of the
claim is discernible, even though the task may be formidable and the conclusion may be one over which reasonable
persons will disagree, we have held the claim sufficiently
clear to avoid invalidity on indefiniteness grounds.” (quoting Exxon Research & Eng’g Co. v. United States, 265 F.3d
1371, 1375 (Fed. Cir. 2001))). It is hard to imagine a clearer
statement than a list of the ingredients that the claimed
formulation “consists essentially of.”
Both sides agree that there are no unlisted ingredients
in the formulations claimed in these patents. However, the
majority states: “Having used the phrase ‘consisting essentially of,’ and thereby incorporated unlisted ingredients or
steps that do not materially affect the basic and novel properties of the invention, a drafter cannot later escape the
definiteness requirement by arguing that the basic and
novel properties of the invention are in the specification,
not the claims.” Maj. Op. at 24. This statement is contrary
to long-standing law and practice, as summarized in Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 908
(2014): “[I]n assessing definiteness, claims are to be read in
light of the patent’s specification and prosecution history.
See, e.g., United States v. Adams, 383 U.S. 39, 48–49 (1966)
(specification); Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 741 (2002) (prosecution history).”
When the properties of a composition are described in
the specification, the usage “consisting essentially of” the

Appx. 48

Case: 17-2149

6

Document: 81

Page: 49

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

ingredients of the composition does not invalidate the
claims when the properties are not repeated in the claims.
The property of better drying time and its
measurement need not be included in composition claims “consisting essentially of” the
listed ingredients
The panel majority affirms that “the phrase ‘consisting
essentially of’ was indefinite based on [the district court’s]
finding that the basic and novel property of ‘better drying
time’ was indefinite on this record.” Maj. Op. at 33. The
majority criticizes Example 5, headed “Comparison of Drying Time/Residual Weight of a Comparative Liquid Formulation Solution Versus the Corresponding Gel.” ’838
patent, col. 21, l. 38–col. 22, l. 49. Example 5 presents experimental details and the results of measuring drying
time of samples in vitro in weighing dishes, and in vivo as
applied directly to the knees.
The district court held that since two measures of drying time were in Example 5, “a POSA would not know under what standard to evaluate the drying rate of the
claimed invention.” Dist. Ct. Op. at 27 (J.A. 27). On this
reasoning, the district court invalidated the composition
claims for indefiniteness. The panel majority agrees, stating that “this prevented a POSITA from being able to have
‘reasonable certainty’ about the scope of the basic and novel
properties of the invention, thereby rendering the term
‘consisting essentially of’ indefinite.” Maj. Op. at 7.
Whatever the significance of drying time as an advantage of the claimed composition, recitation and measurement of this property in the specification does not
convert the composition claims into invalidating indefiniteness because the ingredients are listed in the claims as
“consisting essentially of.”
The property of improved stability and its
measurement need not be included in

Appx. 49

Case: 17-2149

Document: 81

Page: 50

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

7

composition claims “consisting essentially of”
the listed ingredients
The majority also finds indefiniteness of “consisting essentially of” claims based on the property of stability of the
claimed formulations. Longer shelf-life is stated to be an
advantage of these products, and is demonstrated in Example 6 entitled “Comparison of Stability Characteristics
of a Comparative Liquid Formulation Versus Diclofenac
Sodium Gel Formulations.” ’913 patent, col. 25, l. 29–col.
26, l. 20. In Example 6, samples were stored for 6 months
at 60% humidity and 25º C, and “the samples were tested
for impurities by high performance liquid chromatography.” Id., col. 25, ll. 47–51. Example 6 tabulates the results, and concludes: “It was found that upon 6 months of
storage, an impurity, termed ‘impurity A’, was seen to elute
at about 6.6 minutes in varying amounts for the various
compositions as shown in Table 13 below.” ’913 patent, col.
25, ll. 53–56; U.S. Patent No. 8,563,613, col. 22, ll. 52–55.
The majority holds that the “consisting essentially of”
claims are indefinite because Example 6 does not state the
chemical name of impurity A and does not provide full details of the chromatography procedure. Horizon responds
that impurity A is described in the US Pharmacopoeia as
impurity A of diclofenac (USP Diclofenac Related Compound A RS), and that persons of skill in this field would
know of this resource; an expert witness so testified.
Despite Example 6 and its detailed measurement of the
degradation product impurity A, the majority states that
“neither the claims nor the specification disclose the means
to evaluate degradation,” Maj. Op at 6. The specification
describes and exemplifies the stability to degradation by
measuring the appearance of Impurity A in various conditions. The criticism is untenable. See One-E-Way, Inc. v.
Int’l Trade Comm’n, 859 F.3d 1059, 1063 (Fed. Cir. 2017)
(“As long as claim terms satisfy this test [of understanding

Appx. 50

Case: 17-2149

8

Document: 81

Page: 51

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

by persons of skill in the field], relative terms and words of
degree do not render patent claims invalid.”).
My colleagues also state that “[t]he claims . . . do not
make clear that ‘impurity A’ refers to an impurity of diclofenac sodium,” Maj. Op. at 18. This does not comport with
the presentation in Example 6, or with the US Pharmacopoeia identification of this impurity and this method of
analysis. Patents are written for persons in the field of the
invention. See Verve, LLC v. Crane Cams, Inc., 311 F.3d
1116, 1119 (Fed. Cir. 2002) (“Patent documents are written
for persons familiar with the relevant field; the patentee is
not required to include in the specification information
readily understood by practitioners, lest every patent be required to be written as a comprehensive tutorial and treatise for the generalist, instead of a concise statement for
persons in the field.”).
The majority further holds that the information in the
US Pharmacopoeia cannot be considered when the claim is
in the form “consisting essentially of.” Maj. Op. at 16–19.
However, knowledge in the field of the invention must always be considered. See Energizer Holdings, Inc. v. Int’l
Trade Comm’n, 435 F.3d 1366, 1370 (Fed. Cir. 2006)
(“Claim definiteness is analyzed not in a vacuum, but always in light of the teachings of the prior art and of the
particular application disclosure as it would be interpreted
by one possessing the ordinary level of skill in the pertinent
art.” (internal quotation marks omitted)).
The Court guided in Nautilus, 572 U.S. at 908, that
“definiteness is to be evaluated from the perspective of
someone skilled in the relevant art.” See also Energizer
Holdings, 435 F.3d at 1370 (claim definiteness is viewed as
the claim would be understood by a person of ordinary skill
in the field of the invention). The Actavis expert conceded
that impurity A is a known degradation product of diclofenac sodium. Nonetheless, my colleagues hold that “Since
‘impurity A’ is indefinite, it logically follows that another

Appx. 51

Case: 17-2149

Document: 81

Page: 52

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

9

term, such as the ‘degrades’ term, which relies on ‘impurity
A’ for its construction, must also be indefinite.” Maj. Op.
at 20. From this flawed premise the court holds: “[T]he ‘favorable stability’ property was indefinite which in this
case, by extension, rendered the phrase ‘consisting essentially of’ indefinite.” Id. at 8. “Indeed, if a POSITA cannot
ascertain the bounds of the basic and novel properties of
the invention, then there is no basis upon which to ground
the analysis of whether an unlisted ingredient has a material effect on the basic and novel properties.” Id. at 28. I
repeat, there are no unlisted ingredients.
The majority illustrates this flaw in its holding in claim
19 of U.S. Patent No. 9,101,591, that includes both the
term “consisting essentially of,” Maj. Op. at 21 n.7, and the
property “degrades [at] less than 1% over 6 months,” id. at
20. The majority holds the claim invalid for indefiniteness
although the advantageous property is actually stated in
the claim.
The majority’s conclusion is flawed, even on its erroneous premise that the basic and novel properties are required to be included in claims to compositions that are
described in “consisting essentially of” form.
The majority’s distinction between “consisting of” and “consisting essentially of” is
unsupported in precedent
The panel majority holds that the consequence of
claiming a composition as “consisting essentially of” the
named ingredients, compared with “consisting of” the
named ingredients, Maj. Op. at 33–34 n.8, is that the “consisting essentially of” claims are invalid for indefiniteness
unless the claims include the “basic and novel properties”
of the composition and how these properties are measured.
This new rule is not in conformity with precedent. See, e.g.,
Conoco, Inc. v. Energy & Envtl. Int’l, L.C., 460 F.3d 1349
(Fed. Cir. 2006), where this court explained that

Appx. 52

Case: 17-2149

10

Document: 81

Page: 53

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

“consisting of” permits “aspects unrelated to the invention.” Id. at 1360.
The panel majority states that this meaning of “consisting of” is available only to “consisting essentially of,” and
that “a drafter cannot later escape the definiteness requirement by arguing that the basic and novel properties of the
invention are in the specification, not the claims.” Maj. Op.
at 24, op. cit. The court in Conoco recognized the difference
between “consisting of” and “consisting essentially of,” stating that “while ‘consisting of’ limits the claimed invention,
it does not limit aspects unrelated to the invention.” 460
F.3d at 1360. However, no precedent has held that “consisting essentially of” composition claims are invalid unless
they include the properties of the composition in the
claims.
In the cases cited by the panel majority, Maj. Op. at 19,
the properties of the novel compositions were recited in the
specification or adduced in extrinsic evidence. In no case
did the court hold that unless the properties were included
in claims written as “consisting essentially of”" the claims
are invalid. The majority’s new ruling sows conflict and
confusion.
This new rule of claiming compositions
casts countless patents into uncertainty
The role of the claims is to state the subject matter for
which patent rights are sought. See In re Packard, 751
F.3d 1307, 1313 (Fed. Cir. 2014) (“If the claims, read in the
light of the specifications, reasonably apprise those skilled
in the art both of the utilization and scope of the invention,
and if the language is as precise as the subject matter permits, the courts can demand no more.” (quoting GeorgiaPacific Corp. v. U.S. Plywood Corp., 258 F.2d 124, 136 (2d
Cir. 1958))).
The usage “consisting essentially of” states the essential ingredients of the claimed composition. There are no

Appx. 53

Case: 17-2149

Document: 81

Page: 54

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

11

fuzzy concepts, no ambiguous usages in the listed ingredients. There is no issue in this case of the effect of other
ingredients, as in In re Hitachi Metals, Ltd., 603 F. App’x
976, 979 (Fed. Cir. 2015) (“[B]ecause the claims were
drafted in the ‘consisting essentially of’ format, the scope of
the claims can include those additional elements which do
not materially affect the basic and novel characteristics of
the claimed invention as specified in the ’368 patent specification.”).
Here no other components are asserted to be present,
no “unnamed ingredients and steps.” Even on my colleagues’ flawed construction, the claims are not subject to
invalidity for indefiniteness.
The requirement of clear and convincing
evidence
Invalidity for indefiniteness must be established by
clear and convincing evidence. Microsoft Corp. v. i4i Ltd.
P’ship, 564 U.S. 91, 95 (2011). This standard plainly is not
met. “[A] claim is indefinite if its language might mean several different things and no informed and confident choice
is available among the contending definitions.” Media
Rights Techs., Inc. v. Capital One Fin. Corp., 800 F.3d
1366, 1371 (Fed. Cir. 2015) (internal quotation marks omitted). There was no evidence that persons of ordinary skill
in the field of this invention would not understand the components of the composition claims with reasonable certainty.
Applying statute and precedent, the claims at issue
have not been proved invalid for indefiniteness. From my
colleagues’ contrary ruling, I respectfully dissent.
III
INDUCEMENT TO INFRINGE

35 U.S.C. § 271(b) provides that “Whoever actively induces infringement of a patent shall be liable as an

Appx. 54

Case: 17-2149

12

Document: 81

Page: 55

Filed: 10/10/2019

HZNP MEDICINES LLC v. ACTAVIS LABORATORIES UT, INC.

infringer.” The Actavis ANDA label instructs the method
of use that is identical to the patented use. However, my
colleagues hold that there can be no liability for induced
infringement because some patients may not follow the label instructions. Thus the court holds that the provider of
the product with instructions to use it in accordance with
the infringing method cannot be liable for inducement to
infringe.
To be sure, patients may not always comply with instructions. However, this does not insulate the provider
from infringement liability. See Vanda Pharm. Inc. v.
West-Ward Pharm. Int’l Ltd., 887 F.3d 1117, 1129 (Fed.
Cir. 2018) (“The contents of the label itself may permit the
inference of specific intent to encourage, recommend, or
promote infringement.”). It is not disputed that the Actavis
label “instructs users to perform the patented method.”
AstraZeneca LP v. Apotex, Inc., 633 F.3d 1042, 1060 (Fed.
Cir. 2010).
The summary judgment of non-infringement is incorrect in law. From my colleagues’ contrary ruling on this
aspect, I again respectfully dissent.

Appx. 55

APPENDIX B

Case: 17-2149

Document: 82

Page: 1

Filed: 10/10/2019

United States Court of Appeals
for the Federal Circuit
__________________________

HZNP MEDICINES LLC, HORIZON PHARMA
USA, INC.,
Plaintiffs-Appellants
v.
ACTAVIS LABORATORIES UT, INC.,
Defendant-Cross-Appellant
__________________________
2017-2149, 2017-2152, 2017-2153, 2017-2202, 2017-2203,
2017-2206
__________________________
Appeals from the United States District Court for the
District of New Jersey in Nos. 1:15-cv-07742-NLH-AMD,
1:16-cv-00645-NLH-AMD, 1:14-cv-07992-NLH-AMD, 1:15cv-05025-NLH-AMD, 1:15-cv-06131-NLH-AMD, 1:15-cv06989-NLH-AMD, Judge Noel Lawrence Hillman.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED

Appx. 56

Case: 17-2149

Document: 82

Page: 2

Filed: 10/10/2019

ENTERED BY ORDER OF THE COURT
October 10, 2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Appx. 57

APPENDIX C

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 1 of 28 PageID: 5437

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
HORIZON PHARMA IRELAND
LIMITED, et al.,

Civil No. 14-7992 (NLH/AMD)

Plaintiffs,
OPINION
v.
ACTAVIS LABORATORIES, UT,
INC., et al.,
Defendants.

APPEARANCES:
John E. Flaherty
Ravin R. Patel
McCARTER & ENGLISH LLP
Four Gateway Center
100 Mulberry St.
Newark, NJ 07102
Robert F. Green
Christopher T. Griffith
Caryn C. Borg-Breen
Benjamin D. Witte
GREEN, GRIFFITH & BORG-BREEN LLP
NBC Tower, Suite 3100
455 North Cityfront Plaza Drive
Chicago, Illinois 60611
Dennis A. Bennett
GLOBAL PATENT GROUP, LLC
1005 North Warson Road, Suite 404
St. Louis, Missouri 63132
On behalf of Plaintiffs
Liza M. Walsh
Christine I. Gannon
Christopher J. Borchert
WALSH PIZZI O'REILLY FALANGA LLP
One Riverfront Plaza
1037 Raymond Blvd.

Appx. 58

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 2 of 28 PageID: 5438

6th Floor
Newark, NJ 07102
Ralph J. Gabric
Laura A. Lydigsen
Joshua E. Ney, Ph.D.
Joshua H. James
BRINKS GILSON & LIONE
455 North Cityfront Plaza Drive, Suite 3600
Chicago, Illinois 60611
On behalf of Defendants
HILLMAN, District Judge
Presently before the Court in this Hatch-Waxman Act 1 action
is the dispute over the construction of claims in nine patents
relating to PENNSAID® 2%, which is the first FDA-approved twicedaily topical diclofenac sodium formulation for the treatment of
the pain of osteoarthritis (“OA”) of the knees.

Plaintiff

Horizon (Horizon Pharma Ireland Limited, HZNP Limited and

1

The Third Circuit Court of Appeals recently explained,
With the Drug Price Competition and Patent Term Restoration
Act of 1984, Pub. L. No. 98–417, 98 Stat. 1585, commonly
known as the Hatch–Waxman Act, Congress attempted to
balance the goal of “mak[ing] available more low cost
generic drugs,” H.R. Rep. No. 98–857, pt. 1, at 14–15
(1984), reprinted in 1984 U.S.C.C.A.N. 2647, 2647–48, with
the value of patent monopolies in incentivizing beneficial
pharmaceutical advancement, see H.R.Rep. No. 98–857, pt. 2,
at 30 (1984), reprinted in 1984 U.S.C.C.A.N. 2686, 2714.
The Act seeks to accomplish this purpose, in part, by
encouraging “manufacturers of generic drugs . . . to
challenge weak or invalid patents on brand name drugs so
consumers can enjoy lower drug prices.” S. Rep. No. 107–
167, at 4 (2002).

King Drug Co. of Florence, Inc. v. Smithkline Beecham Corp., 791
F.3d 388, 394 (3d Cir. 2015).
2

Appx. 59

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 3 of 28 PageID: 5439

Horizon Pharma USA, Inc.) is the current owner and assignee of
the patents-in-issue, and of the PENNSAID® 2% New Drug
Application (“NDA”); all rights therein were acquired from third
parties.

These patents are:

U.S. Patent Nos. 8,252,838 (“the

’838 patent”), 8,563,613 (“the ’613 patent”), 8,871,809 (“the
’809 patent”), 9,066,913 (“the ’913 patent”), 9,101,591 (“the
’591 patent”), 8,546,450 (“the ’450 patent”), 8,217,078 (“the
’078 patent”), 8,618,164 (“the ’164 patent”) and 9,132,110 (“the
’110 patent”).
The patents may be segregated into groups in accordance
with their related specifications.

The first group of Horizon

patents - the ’838, ’613, ’809, ’913 and ’591 patents - share
substantially identical specifications and claim priority to the
same provisional application filed on October 17, 2006.
According to Horizon, the inventors recognized a significant
unmet need for, inter alia, topical OA pain treatments suitable
for chronic use that will deliver the active agent to the
underlying tissue in sufficient concentration.

The second group

of Horizon patents - the ’450, ’078, ’164 and ’110 patents also share substantially identical specifications, and claim
priority to the same provisional application filed on October
31, 2012.

Horizon states that the inventors recognized a need

for, inter alia, improved methods of dosing topical diclofenac
formulations.
3

Appx. 60

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 4 of 28 PageID: 5440

Horizon has filed several Hatch-Waxman actions alleging
patent infringement against generic companies seeking to market
copies of Horizon’s PENNSAID® 2% formulation prior to the
expiration of Horizon’s patents.

This particular action

concerns claim construction issues relevant to Actavis
Laboratories UT, Inc. (“Actavis”).

Horizon brought this action

in response to Actavis’ assertion that the generic copy of
PENNSAID® 2% described in Actavis’ Abbreviated New Drug
Application No. 207238 (“ANDA”), if approved by the FDA, would
not infringe any valid and enforceable patent owned by Horizon. 2
A claim construction hearing was held on March 3, 2016.
Following the conclusion of the parties’ arguments, the Court
directed the parties to submit supplemental briefing, and on
June 7, 2016, the Court, having considered the entire record and
additional briefing and argument by counsel, issued an oral
Opinion on the Court’s final construction of the patent claims.
This Opinion formally memorializes the Court’s findings as to
its construction of the patent claims at issue pursuant to
Markman v. Westview Instruments, Inc., 517 U.S. 370 (1996).

2

This Court has jurisdiction over the subject matter of this
action pursuant to 28 U.S.C. §§ 1331, 1338(a), 2201, 2202 and 35
U.S.C. § 271.
4

Appx. 61

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 5 of 28 PageID: 5441

I.

LAW OF CLAIM CONSTRUCTION
Claim construction is “an issue for the judge, not the

jury.”

Markman v. Westview Instruments, Inc., 517 U.S. 370, 391

(1996); see also Teva Pharms. USA, Inc. v. Sandoz, Inc., 135 S.
Ct. 831, 841 (2015) (“This ultimate interpretation is a legal
conclusion.”).

“[T]he words of a claim ‘are generally given

their ordinary and customary meaning.’”

Phillips v. AWH Corp.,

415 F.3d 1303, 1312 (Fed. Cir. 2005) (en banc) (quoting
Vitronics Corp. v. Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed.
Cir. 1996)).

“[T]he ordinary and customary meaning of a claim

term is the meaning that the term would have to a person of
ordinary skill in the art [the “POSA”] in question at the time
of the invention.”

Id. at 1313.

Claim construction begins with

the intrinsic evidence of the patent -- the claims, the
specification, and the prosecution history -- and may require
consultation of extrinsic evidence to understand the state of
the art during the relevant time period.

Teva Pharms., 135 S.

Ct. at 841.
As part of construing claims, the Court can assess whether
a claim term is indefinite, and reach “‘a legal conclusion that
is drawn from the court’s performance of its duty as the
construer of patent claims.’”

In re Aoyama, 656 F.3d 1293, 1299

(Fed. Cir. 2011) (quoting Personalized Media Commc’ns, L.L.C. v.
Int’l Trade Comm’n, 161 F.3d 696, 705 (Fed. Cir. 1998)).
5

Appx. 62

For a

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 6 of 28 PageID: 5442

claim term to be definite under 35 U.S.C. § 112, ¶ 2 (2012), 3 “a
patent’s claims, viewed in the light of the specification and
prosecution history, [must] inform those skilled in the art
about the scope of the invention with reasonable certainty.”
Nautilus, Inc. v. Biosig Instruments, Inc., 134 S. Ct. 2120,
2129 (2014).
It is permissible to read in testing conditions from the
specification without violating the basic canon of construction
not to import limitations from the specification into the
claims, but only where this will “reconcile[ ] the ambiguous
claim language with the inventor’s disclosure.”

Chimie v. PPG

Indus., Inc., 402 F.3d 1371, 1378–79 (Fed. Cir. 2005).

Where,

however, the specification discloses multiple methods for
evaluating a claim limitation without guidance to a person of
ordinary skill in the art about which method to use, the claim
limitation is indefinite.

Dow Chem. Co. v. Nova Chems. Corp.

(Can.), 803 F.3d 620, 634–35 (Fed. Cir. 2015); Teva Pharms. USA,
Inc. v. Sandoz, Inc., 789 F.3d 1335, 1344–45 (Fed. Cir. 2015),
on remand from 135 S. Ct. 831 (2015).

3

The statute has been subsequently amended under the Leahy-Smith
America Invents Act (“AIA”), Pub. L. No. 112-29, 125 Stat. 284
(2011), such that this provision has been replaced by 35 U.S.C.
§ 112(b). Because the applications predate the AIA, the pre-AIA
version of § 112 applies. Biosig Instruments, Inc. v. Nautilus,
Inc., 783 F.3d 1374, 1377 n.1 (Fed. Cir. 2015), on remand from
134 S. Ct. 2120 (2014).
6

Appx. 63

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 7 of 28 PageID: 5443

II.

DISPUTED TERMS
As set forth above, there are nine patents asserted in this

matter.

Of these, five patents - U.S. Patent Nos. 8,252,838;

8,563,613; 8,871,809; 9,066,913; and 9,101,591 - are part of the
“’838 Patent Family” and all agreed to have the same
specification.

The other four patents - U.S. Patent Nos.

8,546,450; 8,217,078; 8,618,164; and 9,132,110 - are part of the
“’450 Patent Family” and similarly agreed to have the same
specification.
All of the disputed terms for the Court to construe are
contained within the ’838 Patent Family, thus all references to
the specification will be to the specification of the ’838
Patent.
A.

“the topical formulation produces less than 0.1%
impurity A after 6 months at 25°C and 60% humidity”

Horizon’s Proposed
Construction
Less than 0.1% of Impurity A
(USP Diclofenac Related
Compound A RS) present in a
formulation sample after the
sample was maintained at 25°C
and 60% humidity for 6 months

Court’s construction:
“impurity A”

Defendants’ Proposed
Construction
This term is indefinite
because it does not inform a
person of ordinary skill with
reasonable certainty of what
is claimed. If impurity A is
construed to mean USP
Diclofenac Related Compound A
RS, then the remainder of the
term should be given its plain
and ordinary meaning.

indefinite as to the identity of

7

Appx. 64

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 8 of 28 PageID: 5444

Horizon’s construction seeks to equate the claim term
“impurity A” with USP Diclofenac Related Compound A RS (“USP
Compound A”). 4

Horizon acknowledges that no reference to USP

Compound A exists in the intrinsic evidence, but relies on the
fact that a POSA would know that “impurity A” would refer to USP
Compound A.

Actavis submits that the language of the

specification and absence of testing information within the
specification make the identity of “impurity A” impossible to
know.

Actavis also argues that even if “impurity A” is

knowable, the verb “produces” mandates an assessment of the
amount of “impurity A” before storage to determine a baseline
amount to compare against the amount of “impurity A” after the
six month storage period to calculate what was “produced” during
the storage period, as opposed to what was present as a result
of the synthesis of diclofenac sodium.
Looking to the specification, as mentioned, USP Compound A
is never mentioned.

Horizon’s position is that because the

relevant pharmacopoeias at the time -- the U.S. Pharmacopoeia
(“USP”), the European Pharmacopoeia (“Ph. Eur.”), and the

4

The chemical name for this compound is either N-(2,6dichlorophenyl)indolin-2-one (see USP (26th ed. 2003) at 1975
(Pl.’s Ex. 16); USP (24th ed. 2000) at 1786 (Pl.’s Ex. 17)) or
1-(2,6-dichlorophenyl)-1,3-dihydro-2H-indol-2-one (see Ph. Eur.
(5th ed. 2004) at 1420 (Pl.’s Ex. 18); Ph. Eur. (6th ed. 2005)
at 1687 (Pl.’s Ex. 19)). The literature references referred to
by both experts refer to USP Compound A by both names.
8

Appx. 65

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 9 of 28 PageID: 5445

British Pharmacopoeia (“BP”) -- identify five degradants for
sodium diclofenac by letters (e.g., A, B, C), a POSA would know
that “impurity A” meant the first impurity for sodium
diclofenac, which is disclosed in the USP as USP Compound A.
Actavis does not appear to disagree that this is a possibility,
but it argues that without any further identifying information
given about “impurity A,” it would be impossible for a POSA to
know what “impurity A” is.
The only identity information provided for “impurity A” in
the specification are retention times derived from a high
performance liquid chromatography (“HPLC”) characterization.
However, the specification merely says “the samples were tested
for impurities by high performance liquid chromatography
(HPLC).”

’838 Patent at 23:50–52.

The specification provides

no additional information about the conditions under which the
HPLC experiment were undertaken -- most notably, details
regarding the column, the mobile phase, and the flow rate are
not given.

(See Marvin C. McMaster, HPLC:

A Practical User’s

Guide 53–56 (2d ed. 2007).)
Actavis’ expert explains that the disclosure is
insufficient for a POSA to replicate and understand the HPLC
results to identify “impurity A.”
54.)

(Michniak-Kohn Decl. ¶¶ 52–

Dr. Kohn also explains that the specification fails to

inform a POSA whether “impurity A” is produced as a result of
9

Appx. 66

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 10 of 28 PageID: 5446

the diclofenac, or as a result of any of the other excipients in
the formulation.

(Id. ¶ 51.)

Horizon’s expert responds that

the literature available at the time would demonstrate that
“impurity A” was USP Compound A.

(Walters Resp. Decl. ¶ 16–20.)

Dr. Walters assumes that the HPLC experiment was carried
out using a pharmacopoeia chromatographic system (see Walters
Resp. Decl. ¶ 16), but the specification does not support this
position.

The word “pharmacopoeia” appears nowhere in the ’838

Patent, and Dr. Walters has not explained why a POSA would know
that the HPLC tests described in the ’838 Patent were undertaken
using a pharmacopoeia chromatographic system.

Looking to the

pharmacopoeia excerpts submitting by Horizon, they do not
comport with the HPLC characterization data disclosed in the
specification.

Both editions of the Ph. Eur. and the USP

provide detailed descriptions of a reference solution, the
mobile phase, the flow rate, and details about the column.

(See

Ph. Eur. (6th ed. 2005) at 1686–87; Ph. Eur. (5th ed. 2004) at
1421; USP (26th ed. 2003) at 595–96; USP (24th ed. 2000) at
546.)

Further, even assuming that the HPLC experiment in the

’838 Patent was undertaken using pharmacopoeia chromatographic
systems, the relative retention times disclosed in the
specification only comport with the characterization of
diclofenac given in the USP (0.6 for USP Compound A and 1.0 for

10

Appx. 67

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 11 of 28 PageID: 5447

diclofenac), 5 and do not comport with the information given in
the Ph. Eur. (0.48 for USP Compound A and 1.0 for diclofenac). 6
The specification provides no guidance as to which of the
proposed pharmacopoeia chromatographic systems a POSA could use
to evaluate the identity of “impurity A.”
Further, in neither of the literature references relied
upon by Dr. Walters that he asserts use pharmacopoeia
chromatographic systems does the reference omit the details of
the HPLC experiment (see Roy (2001) at ACT-PENN0014822
(explicitly relying on the BP for the HPLC conditions while
still explaining in detail the conditions used); Hajkova (2002)
at HZNPENN_00071424 (explicitly relying on the USP for baseline
HPLC conditions while also disclosing conditions for a newly
described HPLC experimental setup)) or identify USP Compound A
by anything other than its actual chemical formula and/or
structure (see Roy (2001) at ACT-PENN0014821 (“a stable
intermediate, 1-(2,6-dichlorophenyl)indolin-2-one, which is
commonly known as the indolinone derivative”); Hajkova (2002) at

5

This corresponds to 6.6 minutes for “impurity A” and 11 minutes
for diclofenac as disclosed in the specification.
6

This would correspond to either an elution of “impurity A” at
5.28 minutes if diclofenac eluted at 11 minutes as disclosed, or
an elution of diclofenac at 13.75 minutes if “impurity A” eluted
at 6.6 minutes as disclosed.
11

Appx. 68

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 12 of 28 PageID: 5448

HZNPENN_00071423 (“The main impurity, 1-(2,6dichorophenyl)indolin-2-one (DPI, Fig. 1) . . . .”)).
The identity of “impurity A” as claimed in claim 4 of the
’913 Patent is unknowable to a reasonable certainty to a POSA.
Accordingly, “impurity A” is indefinite.

The Court need not

reach the issue of whether “produces” requires an assessment of
the amount if “impurity A” before storage to provide a baseline
to compare against the amount of “impurity A” after the six
month storage period.
B.

“the formulation degrades by less than 1% over 6
months”

Horizon’s Proposed
Construction
Less than 1% of Impurity A
(USP Diclofenac Related
Compound A RS) present in a
formulation sample after the
sample was maintained at 25°C
and 60% humidity for 6 months

Court’s construction:

Defendants’ Proposed
Construction
This term is indefinite
because it does not inform a
person of ordinary skill with
reasonable certainty of what
is claimed. If construed, the
term should be given its plain
and ordinary meaning.

indefinite

Horizon seeks to do two things in their construction:
(1) explain storage conditions by relying on Example 6 of the
specification; and (2) explain what it means if something
“degrades” by using “impurity A” from Example 6.

Actavis

responds that this is improper importation of limitations from
the specification into the claims, and that even if this were
permissible, the specification provides multiple methods of

12

Appx. 69

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 13 of 28 PageID: 5449

storage without specifying when one is proper, making the terms
indefinite.
Having already concluded that the identity of “impurity A”
is indefinite, this term must also be indefinite.

No other

explanation for how to identify the means of degradation is
provided.

Even if the Court were to try to identify another way

to evaluate degradation, the specification does not provide
guidance.

The specification refers to stability and degradation

as two sides of the same coin, a point which Horizon also made
during the hearing.

(See Hr’g Tr. at 45:22–46:1.)

However,

stability is referred to as a catch all for a number of things,
especially in Example 3 when the gels “remain stable for at
least six months demonstrating:

no phase separation, negligible

shift in pH, and low amounts of degradation products (<0.04%).”
’838 Patent at 16:39–41; see also id. at 12:56–58 (referring to
discoloration and phase separation in the context of stability),
20:37–64 (referring to appearance for stability), 23:30–24:32
(referring to production of “impurity A” for stability).

For

purposes of claim construction, it is presumed that claim terms
are used consistently throughout a patent.
at 1314.

Phillips, 415 F.3d

Thus, it is unclear when “stability” and therefore

“degradation” is referring to production of “impurity A,” or
something else, such as appearance, phase separation, and/or pH
shift.
13

Appx. 70

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 14 of 28 PageID: 5450

Thus, no matter how the Court tries to interpret the term,
the result is indefiniteness.

Either degradation is equated

with “impurity A”, which has already been deemed indefinite, or
the Court is presented with multiple methods for how to evaluate
stability -- and accordingly how to evaluate degradation -without further guidance, rendering the term indefinite.
The Court need not reach the issue of whether Horizon’s
proposed construction would impermissibly import limitations
from the specification with respect to storage conditions.
C.

“consisting essentially of”

Horizon’s Proposed
Construction
Legal issue – no construction
needed in Markman phase; also,
meaning cannot be ascertained
in the absence of proper
context

Court’s construction:

Defendants’ Proposed
Construction
Comprising; if interpreted
otherwise, the claims are
invalid as indefinite and/or
lacking adequate written
description under 35 U.S.C.
§ 112

indefinite due to indefiniteness of the

basic and novel properties of the invention
1.

“Consisting Essentially Of” and the “Basic and
Novel Properties” Require Construction

“Consisting essentially of” is a transitional phrase that
has a well-established legal meaning in Federal Circuit case
law.

“By using the term ‘consisting essentially of,’ the

drafter signals that the invention necessarily includes the
listed ingredients and is open to unlisted ingredients that do
not materially affect the basic and novel properties of the
14

Appx. 71

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 15 of 28 PageID: 5451

invention.”

PPG Indus. v. Guardian Indus. Corp., 156 F.3d 1351,

1354 (Fed. Cir. 1998).

This presents a middle ground between

the open-ended “comprising” that does not exclude any unrecited
claim elements and the closed “consisting of” that excludes any
elements not explicitly recited in the claim.

AK Steel Corp. v.

Sollac & Ugine, 344 F.3d 1234, 1239 (Fed. Cir. 2003).
When asked to construe this term, courts have generally
declined to construe the term, or declined to provide any
further construction beyond the well-established legal meaning
of the term.

See, e.g., Depomed, Inc. v. Sun Pharma Global FZE,

Civ. No. 11-3553 (JAP), 2012 WL 3201692, at *13 (D.N.J. Aug. 3,
2012); Biovail Labs. Int’l SRL v. Abrika, LLLP, No. 04-61704,
2006 WL 6111777, at * 18 (S.D. Fla. Aug. 24, 2006); Classified
Cosmetics, Inc. v. Del Labs., Inc., No. 03-4818, 2004 WL
5645578, at *5 (C.D. Cal. June 14, 2004).
When, however, the “basic and novel properties” themselves
are in dispute, courts have construed the term in order to
define the “basic and novel properties” to delineate what must
be shown for the purposes of infringement or invalidity.

See,

e.g., AK Steel, 344 F.3d at 1239–40 (determining the basic and
novel property of the invention by referring to the
specification); L’Oreal S.A. v. Johnson & Johnson Consumer Cos.,
Inc., No. 12-98-GMS, Docket Item 183, slip op. at 1 n.2 (D. Del.
Nov. 5, 2014) (“As with claim construction, the court determines
15

Appx. 72

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 16 of 28 PageID: 5452

the basic and novel properties of an invention as a matter of
law, while resorting to the same sources of evidence used for
claim construction.”); Trs. of Boston Univ. v. Everlight Elecs.
Co., Ltd., 23 F. Supp. 3d 50, 63–65 (D. Mass. 2014) (noting that
“[t]he caselaw is somewhat unclear as to how to determine the
‘basic and novel properties’ of an invention” and that “[t]his
is a turgid, difficult nook of patent law”); Momentus Golf, Inc.
v. Swingrite Golf Corp., 312 F. Supp. 2d 1134, 1144 (S.D. Iowa
2004) (identifying “[t]he novel property” of the claimed
invention in construing “consisting essentially of”), rev’d, 187
F. App’x 981 (Fed. Cir. 2006) (reversing judgment of
noninfringement for misconstruing what would materially alter
the basic and novel property); Kim v. Conagra Foods, Inc., No.
01-2467, 2003 WL 2122266, at *8 (N.D. Ill. May 23, 2003)
(identifying “the novel property of the claimed invention” in
discussing claim construction); General Elec. Co. v. Hoechst
Celanese Corp., 698 F. Supp. 1181, 1187 (D. Del. 1988) (holding
that “the determination of the basic and novel characteristic of
[the asserted patent] is part of determining the scope of the
claim” and then declining to do so due to a disputed issue of
fact under pre-Markman case law).

It further appears that where

the parties can agree on the basic and novel properties, then
the issue of what materially affects those properties is not
raised until the infringement and invalidity analyses.
16

Appx. 73

See,

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 17 of 28 PageID: 5453

e.g., PPG Indus., 156 F.3d at 1354 (“[The parties] agreed that
the basic and novel characteristics of the glass are color,
composition, and light transmittance.”).
Based on the weight of authority, the Court will construe
“consisting essentially of” in accordance with the wellestablished legal meaning, “consisting of only the specified
materials and those that do not materially affect the basic and
novel properties of the claimed invention.”

Because the parties

dispute what those basic and novel properties or characteristics
are, the Court will go on to identify them. 7

2.

Nautilus Applies to the “Basic and Novel
Properties”

A major dispute between the parties is whether the Nautilus
standard applies to the determination of the “basic and novel
properties.”

The parties agree that no court has yet to apply

the Nautilus standard for indefiniteness to this issue, and the
Court has been unable to identify any.
issue of first impression.

Accordingly, this is an

Horizon submits that because

Nautilus applies only to the bounds of claims that it should not
be read so broadly as to apply to the basic and novel properties
in construing “consisting essentially of.”

Actavis counters

that because the basic and novel properties are part of defining

7

The Court will not address the timing issues variously raised
by the parties about the basic and novel properties.
17

Appx. 74

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 18 of 28 PageID: 5454

the scope of the claim, Nautilus should apply to them as well.
The Court agrees with Actavis that the basic and novel
properties are part of the scope of the claim, and as such are
part and parcel of the claims.
As a primary matter, the Federal Circuit has found that the
definiteness requirement of 35 U.S.C. § 112, ¶ 2 applies to a
“consisting essentially of” claim.
1354–55.

See PPG Indus., 156 F.3d at

For example, in PPG Industries, PPG held a patent for

tinted glass used in automobiles, and filed an infringement
action against Guardian, claiming that Guardian’s glass product
infringed PPG’s patent.

At the Markman phase, the district

court was tasked with construing the following claim term:

“A

green tinted, ultraviolet absorbing glass having a base glass
composition consisting essentially of: [various specific
ingredients] and a colorant portion consisting essentially of:
[various specific ingredients].”

Id. at 1352.

The parties

agreed that that the basic and novel characteristics of PPG’s
glass were color, composition, and light transmittance.
1354.

Id. at

Guardian argued that its glass contained iron sulfide, an

ingredient not listed in PPG’s patent, as a colorant, and it
therefore did not infringe.

Id. at 1353.

PPG argued that the district court was required to
determine as a part of claim construction whether iron sulfide
could have a material effect on the basic and novel
18

Appx. 75

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 19 of 28 PageID: 5455

characteristics of the claimed glass.

Id. at 1354.

If iron

sulfide did not materially affect PPG’s patented glass product,
then Guardian’s glass could be found to be infringing.

The

Federal Circuit affirmed the district court, which left the
material-effect determination for the jury.

The Federal Circuit

explained,
Claims are often drafted using terminology that is not as
precise or specific as it might be. As long as the result
complies with the statutory requirement to “particularly
point[ ] out and distinctly claim[ ] the subject matter
which the applicant regards as his invention,” 35 U.S.C. §
112, para. 2, that practice is permissible. That does not
mean, however, that a court, under the rubric of claim
construction, may give a claim whatever additional
precision or specificity is necessary to facilitate a
comparison between the claim and the accused product.
Rather, after the court has defined the claim with whatever
specificity and precision is warranted by the language of
the claim and the evidence bearing on the proper
construction, the task of determining whether the construed
claim reads on the accused product is for the finder of
fact.
Id. at 1355.

The Federal Circuit emphasized that PPG’s patent

“contained some inherent imprecision resulting from the use of
the term ‘consisting essentially of.’”

Id.

It also emphasized

that “PPG was entitled to provide its own definition for the
terms used in its patent claim, including the transition phrase
‘consisting essentially of,’” and that “PPG could have defined
the scope of the phrase ‘consisting essentially of’ for purposes
of its patent by making clear in its specification what it
regarded as constituting a material change in the basic and

19

Appx. 76

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 20 of 28 PageID: 5456

novel characteristics of the invention.”

Id.

The Federal

Circuit found that because PPG failed to do so at the claim
construction phase, whether the iron sulfide present in
Guardian’s glass materially affected the basic and novel
properties of PPG’s glass was for a jury to decide.

Id.

The PPG Industries case affirms that claims containing the
phrase “consisting essentially of” must meet the definiteness
requirement of 35 U.S.C. § 112, ¶ 2, but the case also
recognizes that the phrase itself is imprecise.

In order to

assess the definiteness of a patent claim that contains an
imprecise phrase, the construction of the term “consisting
essentially of” can be separated into two categories: (1) the
specific listed ingredients or steps, and (2) the unlisted
ingredients or steps that do not materially affect the basic and
novel properties of the invention.

At the claim construction

phase, a court may construe the second category of a “consisting
essentially of” claim term as long as the patent holder shows,
through the specification and prosecution history, that a person
skilled in the art would know that a particular unlisted
ingredient could materially affect the basic and novel
properties of the patent.

If the patent holder fails to do so,

a jury must determine whether an unlisted ingredient or step
materially affects the basic and novel properties of the
invention.
20

Appx. 77

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 21 of 28 PageID: 5457

The lesson to be applied to this case, therefore, is that a
court’s assessment of the basic and novel properties may be
performed at the claim construction phase because under certain
circumstances the basic and novel properties of an invention are
part of the construction of a claim containing the phrase
“consisting essentially of.”
The Supreme Court’s decision in Nautilus simply reaffirms
the long-established requirement that a patent’s claims must be
definite.

The Supreme Court issued such a decision to make

clear that centuries-old precedent applying the definiteness
requirement of 35 U.S.C. § 112, ¶ 2, is still the standard
today.

See Nautilus, 134 S. Ct. at 2124, 2130 (finding that the

current terminology “can leave the courts and the patent bar at
sea without a reliable compass”).

The Supreme Court directed,

“In place of the ‘insolubly ambiguous’ standard, we hold that a
patent is invalid for indefiniteness if its claims, read in
light of the specification delineating the patent, and the
prosecution history, fail to inform, with reasonable certainty,
those skilled in the art about the scope of the invention.”

Id.

Through this direction, the Supreme Court recognized the
delicate balance between the inherent limitations of language
and the need for language precise enough to afford clear notice
of what is claimed in order to avoid a zone of uncertainty for
inventors.

Id. at 2129.

Indeed, the Supreme Court observed
21

Appx. 78

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 22 of 28 PageID: 5458

that “absent a meaningful definiteness check . . . patent
applicants face powerful incentives to inject ambiguity into
their claims,” and that “[e]liminating that temptation is in
order.”

Id. (citations omitted).

The Supreme Court noted that

the “patent drafter is in the best position to resolve the
ambiguity in patent claims.”

Id. (citation omitted).

After setting forth the redefined standard for assessing
definiteness under 35 U.S.C. § 112, ¶ 2, the Supreme Court
remanded the case to the Federal Circuit so that it could apply
the standard to the claim at issue:

a heart rate monitor that

“‘comprise[s],’ among other elements, an ‘elongate member’
(cylindrical bar) with a display device; ‘electronic circuitry
including a difference amplifier’; and, on each half of the
cylindrical bar, a live electrode and a common electrode
‘mounted ... in spaced relationship with each other.’

Id. at

2126 (noting that parties presented differing views on the
definiteness of the term “spaced relationship”).
The Nautilus decision replaced the Federal Circuit’s
amorphous standard for assessing whether a claim is indefinite
with a standard that will allow only claims that meet the
statutory definiteness requirement to stand.

Because the basic

and novel properties of an invention are part of the
construction of a claim containing the phrase “consisting
essentially of,” the Nautilus standard applies to the assessment
22

Appx. 79

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 23 of 28 PageID: 5459

of an invention’s basic and novel properties.

Accordingly, the

construction of the basic and novel properties is governed by 35
U.S.C. § 112, ¶ 2 and the accompanying analysis from Nautilus.

3.

The Basic and Novel Properties of the Claimed
Invention Are Indefinite

Horizon has identified five basic and novel properties for
the claimed invention, relying on the specification of the ’828
Patent:

(1) better drying time; (2) higher viscosity; (3)

increased transdermal flux; (4) greater pharmacokinetic
absorption; and (5) favorable stability.
35, 9:1–10:47.

’838 Patent at 4:24–

Actavis argues that these are not identified as

the basic and novel properties in the specification, and that
these comparative terms do not provide the “reasonable
certainty” required by Nautilus.
Relying on the canons of claim construction, the Court
agrees with Horizon that the specification does identify these
five properties as the “Characteristics of the Gel Formulation.”
’838 Patent at 9:1–10:47.

Further, these characteristics are

identified early on in the summary of the invention as being the
characteristics that demonstrate improvement over the prior art.
’838 Patent at 4:23–35.

This is sufficient to identify these as

the basic and novel properties of the claimed invention.

23

Appx. 80

See

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 24 of 28 PageID: 5460

L’Oreal, slip op. at 1 n.2 (identifying basic and novel
properties even when not clearly titled as such). 8
The focus now shifts to Actavis’ position that the
identified basic and novel properties are indefinite under 35
U.S.C. § 112, ¶ 2.

Actavis argues that these generic

comparative terms are too imprecise to be definite.

As an

exemplar of their argument, Actavis points to the first
identified basic and novel property -- better drying time. 9
In the section of the specification that identifies the
basic and novel properties, under the subheading for “Drying
Time,” the specification explains that “[r]elative to previously
disclosed [liquid] compositions . . . the compositions of the
invention dry quicker . . . . The drying time difference is
evident when equal amounts of the two products are tested on
opposite limbs.

Within thirty (30) minutes the compositions of

the invention are almost completely dry whereas a significant
amount of the previously described liquid formulation remains.”

8

Even if the Court were to accept Actavis’ invitation to
extrapolate out the requirements of means-plus-function claiming
under 35 U.S.C. § 112, ¶ 6 to require a clear identification,
which it does not do so, the ’838 Patent would accomplish this.
9

The parties briefed the definiteness of the claim term “a
greater drying rate” in their opening Markman briefs and
submitted expert declarations on the issue. Subsequently,
Horizon dropped claims including this term, and the issue was
not briefed again in responsive Markman briefs or in responsive
expert declarations.
24

Appx. 81

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 25 of 28 PageID: 5461

’838 Patent at 10:5–21.

No data is ever provided in the

specification for this on-limb testing.

This section of the

specification then discusses how to test for drying time more
quantitatively and refers to data from an example later in the
specification.

See ’838 Patent at 10:22–30. 10

Turning to Example 5 and Table 12 which discuss drying
time, there is an apparent problem in the assertion from earlier
in the specification that the claimed invention would be drier
within thirty minutes.

Example 5 is conducted using the “more

quantitative[ ]” method, wherein the formulations are spread on
a plate and weighed at various time intervals, with “dryness”
being determined by the percentage of weight remaining on the
plate.

See ’838 Patent at 21:38–22:49.

Example 5 discusses

three different gel compositions, all of which are embodiments
of the claimed invention of the ’838 Patent.

See id.

Of the

three gel compositions, only two of the described compositions
are “drier” than the prior art liquid comparative at thirty

10

The specification refers to Table 11 and Figure 10. ’838
Patent at 10:29–30. However, these contain transdermal flux
data and not weight and drying time, whereas Table 12 and Figure
11 contain the weight and drying time data. Accordingly, the
Court finds this is a typographical error and one a POSA
reviewing the ’838 Patent would readily understand to look to
Table 12 and Figure 11 rather than Table 11 and Figure 10. Cf.
Lucent Techs., Inc. v. Gateway, Inc., 525 F.3d 1200, 1215 & n.8
(Fed. Cir. 2008) (permitting courts to redraft claim language
“when there is an obvious administrative or typographical error
not subject to reasonable debate”) (citing Hoffer v. Microsoft
Corp., 405 F.3d 1326, 1331 (Fed. Cir. 2005)).
25

Appx. 82

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 26 of 28 PageID: 5462

minutes.

’838 Patent at Table 12.

The third formulation shows

100% of the weight remaining at thirty minutes as compared to
the prior art liquid comparative which shows 95.6% of its weight
remaining.

Id.

Only at four hours does the third formulation

begin to show that it is drier than the prior art liquid
comparative (86.8% vs. 93%).

Id.

The contradictions specifically within Example 5 are even
more problematic.

Example 5 claims that “even within the first

five minutes, the three gel formulations displayed more rapid
drying than the liquid formulation.”

’838 Patent at 21:63–65.

This is simply not supported by the data, which shows that at
five minutes the third formulation had 100.3% of its weight
present as compared to 98.1% of the prior art liquid
comparative.

’838 Patent at Table 12.

In short, the specification describes two different methods
for evaluating “better drying time,” and the two methods do not
provide consistent results at consistent times.

Further, the

claimed results are not seen across all formulations of the
claimed invention, and when “dryness” is evaluated at any time
shorter than four hours, not all formulations of the claimed
invention actually exhibit “better drying time.”

Horizon’s

expert urges the Court to only evaluate the drying rate at the
twenty-four hour mark.

(See Walters Opening Decl. ¶¶ 89–96.)

However, Dr. Walters’ reasoning does not comport with the plain
26

Appx. 83

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 27 of 28 PageID: 5463

language of the specification, as explained.

Even considering

his references to the prosecution history, these still do not
provide any clarity on the appropriate time frame under which to
evaluate the drying rate.

(See id. ¶ 92; Walters Ex. P.)

More

persuasive is Dr. Kohn’s reasoning that a POSA would not know
under what standard to evaluate the drying rate of the claimed
invention.

(See Michniak-Kohn Decl. ¶¶ 23–31.)

The result is that the “better drying rate” basic and novel
property is indefinite.

If a POSA reading the patent would

understand the five principles identified by Horizon to be the
basic and novel properties of the claimed invention, then once
one of them is indefinite, they all become problematic.

As

stated, the purpose of the requirement of 35 U.S.C. § 112, ¶ 2
is to “inform those skilled in the art about the scope of the
invention with reasonable certainty.”
2129.

Nautilus, 134 S. Ct. at

Once one property does not have “reasonable certainty,”

it follows that the group of properties itself does not have the
requisite “reasonable certainty.”

Consequently, the term

“consisting essentially of” must be construed as indefinite due
to the inability for a POSA to have “reasonable certainty” about
what the basic and novel properties of the invention are, and
thus the POSA would lack “reasonable certainty” about whether an
additional ingredient would materially alter the basic and novel
properties of the claimed invention.
27

Appx. 84

Case 1:14-cv-07992-NLH-AMD Document 188 Filed 08/17/16 Page 28 of 28 PageID: 5464

III. CONCLUSION
For the foregoing reasons, the disputed terms are all held
to be indefinite under 35 U.S.C. § 112, ¶ 2.

Date:
August 17, 2016
At Camden, New Jersey

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

28

Appx. 85

APPENDIX D

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 1 of 9 PageID: 6484

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

HORIZON PHARMA IRELAND
LIMITED, et al.,

Civil No. 14-7992 (NLH/AMD)

OPINION

Plaintiffs,
v.
ACTAVIS LABORATORIES, UT,
INC., et al.,
Defendants.

APPEARANCES:
John E. Flaherty
Ravin R. Patel
McCARTER & ENGLISH LLP
Four Gateway Center
100 Mulberry St.
Newark, NJ 07102
Robert F. Green
Christopher T. Griffith
Caryn C. Borg-Breen
L. Scott Beall
Jessica M. Tyrus
Benjamin D. Witte
GREEN, GRIFFITH & BORG-BREEN LLP
NBC Tower, Suite 3100
455 North Cityfront Plaza Drive
Chicago, Illinois 60611
Dennis A. Bennett
GLOBAL PATENT GROUP, LLC
1005 North Warson Road, Suite 404
St. Louis, Missouri 63132
On behalf of HORIZON PHARMA IRELAND LIMITED, et al.
Liza M. Walsh
Christine I. Gannon
Katelyn O'Reilly
WALSH PIZZI O'REILLY FALANGA LLP

Appx. 86

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 2 of 9 PageID: 6485

One Riverfront Plaza
1037 Raymond Blvd.
6th Floor
Newark, NJ 07102
Ralph J. Gabric
Laura A. Lydigsen
Joshua E. Ney, Ph.D.
Joshua H. James
Andrew S. McElligott
BRINKS GILSON & LIONE
455 North Cityfront Plaza Drive, Suite 3600
Chicago, Illinois 60611
On behalf of ACTAVIS LABORATORIES, UT, INC., et al.
HILLMAN, District Judge
Before the Court is the motion of Plaintiff Horizon
(Horizon Pharma Ireland Limited, HZNP Limited and Horizon Pharma
USA, Inc.) for reconsideration (Docket No. 192) of the Court’s
August 17, 2016 Markman Opinion (Docket No. 188).

Horizon is

the current owner and assignee of the patents-in-issue and of
the PENNSAID® 2% New Drug Application, which is the first FDAapproved twice-daily topical diclofenac sodium formulation for
the treatment of the pain of osteoarthritis of the knees.
Horizon has filed several Hatch-Waxman actions alleging
patent infringement against generic companies seeking to market
copies of Horizon’s PENNSAID® 2% formulation prior to the
expiration of Horizon’s patents, and this particular action
concerns Horizon’s claims against Actavis Laboratories UT, Inc.

2

Appx. 87

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 3 of 9 PageID: 6486

(“Actavis”). 1

Horizon brought this action 2 in response to

Actavis’ assertion that the generic copy of PENNSAID® 2%
described in Actavis’ Abbreviated New Drug Application No.
207238 (“ANDA”), if approved by the FDA, would not infringe any
valid and enforceable patent owned by Horizon.
In the Markman phase of the case, 3

the Court was tasked

with construing the following terms in the ’838 Patent Family 4:
A.

“the topical formulation produces less than 0.1%
impurity A after 6 months at 25°C and 60% humidity”

B.

“the formulation degrades by less than 1% over 6
months”

C.

“consisting essentially of”

1

Another group of cases filed by Horizon against a generic
company seeking to market copies of Horizon’s PENNSAID® 2%
formulation prior to the expiration of Horizon’s patents is
against Lupin Ltd. and Lupin Pharmaceuticals, Inc. Because the
Court’s findings in the Actavis actions directly impact the
claims in the Lupin actions, Lupin filed a brief in opposition
to Horizon’s motion for reconsideration and appeared at the
January 4, 2017 hearing on that motion. (See Civil Action No.
15-3051, Docket No. 137.)
2

This Court has jurisdiction over the subject matter of this
action pursuant to 28 U.S.C. §§ 1331, 1338(a), 2201, 2202 and 35
U.S.C. § 271.
3

Claim construction is “an issue for the judge, not the jury.”
Markman v. Westview Instruments, Inc., 517 U.S. 370, 391 (1996).
4

There are nine patents asserted in this matter. Of these, five
patents - U.S. Patent Nos. 8,252,838; 8,563,613; 8,871,809;
9,066,913; and 9,101,591 - are part of the “’838 Patent Family”
and all agreed to have the same specification. The other four
patents - U.S. Patent Nos. 8,546,450; 8,217,078; 8,618,164; and
9,132,110 - are part of the “’450 Patent Family” and similarly
agreed to have the same specification.
3

Appx. 88

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 4 of 9 PageID: 6487

The Court found each of these terms to be indefinite.
(Docket No. 188 at 12, 14, 27.)

Specially with regard to

“consisting essentially of,” the Court noted that Horizon
identified five basic and novel properties for the claimed
invention: (1) better drying time; (2) higher viscosity; (3)
increased transdermal flux; (4) greater pharmacokinetic
absorption; and (5) favorable stability.

(Id. at 23.)

The

Court found that the basic and novel property of “better drying
time” was indefinite, which therefore caused the term
“consisting essentially of” to be indefinite.

(Id. at 27.)

Horizon has filed the instant motion for reconsideration,
arguing that the Court erred in two ways:
The Court did not consider the alleged “indefiniteness”
on a claim-by-claim basis, but instead broadly held the term
“consisting essentially of” to be indefinite.
When claims
requiring use of hydroxypropyl cellulose (HPC) as a
thickening agent are considered as independent inventions,
those claims should not be found to be indefinite because the
test results for such inventions are consistent. The only
evidence of alleged inconsistent testing results was in the
context of different claimed inventions that require carbopol
thickening agents; and
The Court’s finding of indefiniteness is based on
allegedly “unrebutted” expert testimony that the patent
discloses two methods for comparing drying rates, which
provide inconsistent results. However, Horizon’s responsive
expert evidence on this issue was not presented to the Court
because of an agreement between the parties to not brief the
definiteness of “greater drying rate” in Responsive Markman
briefs.
At the time of the Markman briefing and Markman
Hearing, Actavis had not sought leave to amend their
contentions to include the argument that the basic and novel
properties were themselves indefinite. Indeed, to date, the
only indefiniteness argument presented with respect to
4

Appx. 89

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 5 of 9 PageID: 6488

“consisting essentially of” in Actavis’ Contentions is that
a person of ordinary skill (“POSA”) cannot identify the basic
and novel properties.
(Docket No. 192-1 at 7.)

Horizon also objects to the Court’s

application of Nautilus, Inc. v. Biosig Instruments, Inc., 134
S. Ct. 2120, 2129 (2014) to the analysis of the invention’s
basic and novel properties.

(Docket No. 192-1 at 10.)

The Court will grant Horizon’s request that it reconsider
its Markman decision, but after having fully considered the
parties’ briefing and oral argument, the Court stands by its
prior findings. 5
With regard to Horizon’s argument that it was precluded
from fully presenting its evidence to support its construction

5

A motion for reconsideration may be treated as a motion to
alter or amend judgment under Fed. R. Civ. P. 59(e), or as a
motion for relief from judgment or order under Fed. R. Civ. P.
60(b), or it may be filed pursuant to Local Civil Rule 7.1(i).
The purpose of a motion for reconsideration “is to correct
manifest errors of law or fact or to present newly discovered
evidence.” Max's Seafood Cafe ex rel. Lou–Ann, Inc. v.
Quinteros, 176 F.3d 669, 677 (3d Cir. 1999). A judgment may be
altered or amended only if the party seeking reconsideration
shows: (1) an intervening change in the controlling law; (2) the
availability of new evidence that was not available when the
court granted the motion for summary judgment; or (3) the need
to correct a clear error of law or fact or to prevent manifest
injustice. Id. A motion for reconsideration may not be used to
re-litigate old matters or argue new matters that could have
been raised before the original decision was reached, P.
Schoenfeld Asset Mgmt., L.L.C. v. Cendant Corp., 161 F.Supp.2d
349, 352 (D.N.J. 2001), and mere disagreement with the Court
will not suffice to show that the Court overlooked relevant
facts or controlling law, United States v. Compaction Sys.
Corp., 88 F.Supp.2d 339, 345 (D.N.J. 1999).
5

Appx. 90

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 6 of 9 PageID: 6489

of the term “better drying time,” the Court does not agree.

The

timeline of events, detailed by Actavis in its presentation at
the January 4, 2017 hearing, demonstrates that Horizon had ample
notice of Actavis’s indefiniteness challenge to “better drying
time,” and several opportunities – including during the two
Markman hearings on March 2, 2016 and June 7, 2016, the
supplemental briefing in between, and during the ten weeks after
the second Markman hearing and the issuance of the Court’s
Markman Opinion on August 17, 2016 – to voice its concerns about
presenting all of its evidence to support its construction of
“better drying time.”
Similarly, Horizon chose to present its position on the
`838 Patent Family as a whole, and has only raised the request
that each claim of every patent should be considered
individually in its motion for reconsideration.

It is clear

that Horizon was not “sandbagged” by the course of the claim
construction process that took place over many months.
Even considering, however, Horizon’s belated arguments to
support its construction of “better dying time” and request for
claim-by-claim construction, the Court comes to the same
conclusion as detailed in the Markman Opinion.

As the Court

summed up its analysis, (1) the specification describes two
different methods for evaluating “better drying time,” and the
two methods do not provide consistent results at consistent
6

Appx. 91

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 7 of 9 PageID: 6490

times, (2) the claimed results are not seen across all
formulations of the claimed invention, and when “dryness” is
evaluated at any time shorter than four hours, not all
formulations of the claimed invention actually exhibit “better
drying time,” and (3) Horizon’s expert Dr. Walters’ reasoning
does not comport with the plain language of the specification,
and his references to the prosecution history do not provide any
clarity on the appropriate time frame under which to evaluate
the drying rate, while Actavis’ expert Dr. Kohn is more
persuasive that a POSA would not know under what standard to
evaluate the drying rate of the claimed invention.
188 at 26-27.)

(Docket No.

Thus, Horizon’s requested relief in its motion

for reconsideration, even if granted, does not change the
Court’s conclusion.
Putting aside the construction of “better drying time,” the
finding that the term “consisting essentially of” is indefinite
is also confirmed by the finding that the stability and
degradation claims are indefinite.

As noted above, one of the

basic and novel properties of Horizon’s claimed invention is
“favorable stability.”

The Court did not specifically address

this term in the context of assessing the definiteness of the
basic and novel properties, but earlier in the Markman Opinion
the Court extensively analyzed the terms “the topical
formulation produces less than 0.1% impurity A after 6 months at
7

Appx. 92

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 8 of 9 PageID: 6491

25°C and 60% humidity” and “the formulation degrades by less
than 1% over 6 months.”

In construing those terms, the Court

found that the identity of “impurity A” was unknowable to a
reasonable certainty to a POSA.

(Docket No 188 at 7-12.)

The

Court further found that the patent did not provide guidance on
how to evaluate degradation because it was either equated with
“impurity A”, which had already been deemed indefinite, or could
be determined by multiple methods for how to evaluate stability
without further guidance.

(Id. at 7-13.)

Thus, the Court

concluded that both terms relating to stability were indefinite. 6
The finding that the claim terms relating to stability are
indefinite renders the claim term “consisting essentially of”
indefinite.

This is because the basic and novel property of

“favorable stability” is indefinite.

As stated in the Court’s

Markman Opinion, if a POSA reading the patent would understand
the five principles identified by Horizon to be the basic and
novel properties of the claimed invention, then once one of them
is indefinite, they all become problematic.

(Id. at 27.)

When

one property does not have “reasonable certainty,” it follows
that the group of properties itself does not have the requisite
“reasonable certainty.”

Consequently, the term “consisting

6

Horizon has not specifically challenged this finding in its
motion for reconsideration.
8

Appx. 93

Case 1:14-cv-07992-NLH-AMD Document 234 Filed 01/06/17 Page 9 of 9 PageID: 6492

essentially of” must be construed as indefinite due to the
inability for a POSA to have “reasonable certainty” about what
the basic and novel properties of the invention are, and the
POSA would lack “reasonable certainty” about whether an
additional ingredient would materially alter the basic and novel
properties of the claimed invention.

(Id.)

Thus, regardless of

the Court’s construction of “better drying time,” the
indefiniteness of the stability terms also warrants the finding
that “consisting essentially of” is indefinite.
Finally, with regard to Horizon’s argument that the
standard for an indefiniteness analysis reiterated by the
Supreme Court in Nautilis should not be performed as to the
basic and novel properties, the Court stands by its Markman
Opinion, which explained why Nautilis should, and does, apply
here.

(Id. at 17-23.)
Horizon’s bases for reconsideration were ably briefed and

argued at the January 4, 2017 hearing, such that Horizon
persuaded the Court to reconsider its August 17, 2016 Markman
Opinion.

But after reconsideration, the Court is not persuaded

to disturb the prior result.
An appropriate Order will be entered.

Date:
January 6, 2017
At Camden, New Jersey

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

9

Appx. 94

APPENDIX E

Case: 17-2149

Document: 96

Page: 1

Filed: 02/25/2020

United States Court of Appeals
for the Federal Circuit
______________________

HZNP FINANCE LIMITED, HORIZON
THERAPEUTICS USA, INC.,
Plaintiffs-Appellants
v.
ACTAVIS LABORATORIES UT, INC.,
Defendant-Cross-Appellant
______________________
2017-2149, 2017-2152, 2017-2153, 2017-2202, 2017-2203,
2017-2206
______________________
Appeals from the United States District Court for the
District of New Jersey in Nos. 1:14-cv-07992-NLH-AMD,
1:15-cv-05025-NLH-AMD, 1:15-cv-06131-NLH-AMD, 1:15cv-06989-NLH-AMD, 1:15-cv-07742-NLH-AMD, 1:16-cv00645-NLH-AMD, Judge Noel Lawrence Hillman.
______________________
ON PETITION FOR REHEARING EN BANC
______________________
CARYN BORG-BREEN, Green, Griffith & Borg-Breen
LLP, Chicago, IL, filed a petition for rehearing en banc for
plaintiffs-appellants. Also represented by ROBERT FRITZ
GREEN, JESSICA TYRUS.
JOHN CHRISTOPHER ROZENDAAL, Sterne Kessler Goldstein & Fox, PLLC, Washington, DC, filed a response to the
petition for defendant-cross-appellant. Also represented

Appx. 95

Case: 17-2149

2

Document: 96

Page: 2

Filed: 02/25/2020

HZNP FINANCE LIMITED v. ACTAVIS LABORATORIES UT, INC.

by KRISTINA CAGGIANO KELLY, MICHAEL E. JOFFRE,
WILLIAM H. MILLIKEN.
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
LOURIE, Circuit Judge, with whom NEWMAN,
O’MALLEY, and STOLL, Circuit Judges, join, dissents from
the denial of the petition for rehearing en banc.
PER CURIAM.
ORDER
A petition for rehearing en banc was filed by appellants
HZNP Finance Limited and Horizon Therapeutics USA,
Inc. A response to the petition was invited by the court and
filed by cross-appellant Actavis Laboratories UT, Inc. The
petition for rehearing was first referred to the panel that
heard the appeal, and thereafter, the petition for rehearing
en banc and the response were referred to the circuit judges
who are in regular active service. A poll was requested,
taken, and failed.
Upon consideration thereof,
IT IS ORDERED THAT:
1) The petition for panel rehearing is denied.
2) The petition for rehearing en banc is denied.
3) The mandate of the court will issue on March 3,
2020.
FOR THE COURT
February 25, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Appx. 96

Case: 17-2149

Document: 96

Page: 3

Filed: 02/25/2020

United States Court of Appeals
for the Federal Circuit
______________________

HZNP FINANCE LIMITED, HORIZON
THERAPEUTICS USA, INC.,
Plaintiffs-Appellants
v.
ACTAVIS LABORATORIES UT, INC.,
Defendant-Cross-Appellant
______________________
2017-2149, 2017-2152, 2017-2153, 2017-2202, 2017-2203,
2017-2206
______________________
Appeals from the United States District Court for the
District of New Jersey in Nos. 1:14-cv-07992-NLH-AMD,
1:15-cv-05025-NLH-AMD, 1:15-cv-06131-NLH-AMD, 1:15cv-06989-NLH-AMD, 1:15-cv-07742-NLH-AMD, 1:16-cv00645-NLH-AMD, Judge Noel Lawrence Hillman.
______________________
LOURIE, Circuit Judge, with whom NEWMAN, O’MALLEY,
and STOLL, Circuit Judges, join, dissenting from the denial of the petition for rehearing en banc.
I respectfully dissent from the court’s decision not to
rehear this case en banc. I believe the panel majority, affirming the district court, has erroneously misconstrued
the “consisting essentially of” language in evaluating the
definiteness requirement of 35 U.S.C. § 112.
The petition for rehearing asserts that the panel erred
in holding that the claims reciting “consisting essentially

Appx. 97

Case: 17-2149

2

Document: 96

Page: 4

Filed: 02/25/2020

HZNP FINANCE LIMITED v. ACTAVIS LABORATORIES UT, INC.

of” are indefinite because the basic and novel properties
that the specification indicates the claimed composition
possess are indefinite. I agree with the petition.
It is not disputed that “consisting essentially of” generally means that the composition not contain, in addition to
its enumerated components, materials that materially affect the basic and novel properties of the invention. PPG
Indus. v. Guardian Indus. Corp., 156 F.3d 1351, 1354 (Fed.
Cir. 1998). The majority here, affirming the district court,
concluded that the claim was indefinite because of inconsistencies in the meaning of “better drying time.”
However, better drying time is not in the claim, and it
is the claims that the statute requires be definite. Claim
49 of U.S. Patent 8,252,838 (“the ’838 patent”), at issue,
certainly is definite on its face. It reads:
49. A topical formulation consisting essentially of:
1–2% w/w diclofenac sodium;
40–50% w/w DMSO;
23–29% w/w ethanol;
10–12% w/w propylene glycol;
hydroxypropyl cellulose; and
water to make 100% w/w,
wherein the topical formulation has a viscosity of 500–5000 centipoise.
’838 patent col. 30 ll. 60–67. It recites diclofenac, the main
active ingredient of the composition, three other specific excipients, all with precise and definite quantity ranges; one
more excipient with no range; and the remainder consisting of water. Drying time is not recited.
The “consisting essentially of” language connotes that
those specified are the claim’s essential ingredients, but it
is not closed to others. The word “essential” is key. The

Appx. 98

Case: 17-2149

Document: 96

Page: 5

Filed: 02/25/2020

HZNP FINANCE LIMITED v. ACTAVIS LABORATORIES UT, INC.

3

possibility of inclusion of others, implied by the language
at issue here, does not make what is recited and essential
indefinite.
The utility of the claimed invention, recited in the specification, is as an anti-inflammatory, or analgesic, because
those are the principal properties of diclofenac, the main
ingredient of the composition. The specification also indicates that the advantages of the claimed composition are
better drying time, higher viscosity, increased transdermal
flux, greater pharmacokinetic absorption, and favorable
stability. ’838 patent col. 4 ll. 22–27. This disclosure informs the public about the nature of the claimed invention
and may satisfy other requirements of § 112 as well as the
utility requirement of § 101. These advantages are certainly relevant to showing that an invention has utility and
may be important in overcoming a rejection for obviousness. But it is the language of the claims that must not be
indefinite, not the understanding or clarity of an advantage
of the invention. The advantages of the invention, its utility and its basic and novel properties, are not in the claims.
Aside from the specifics of “better drying time” in this
case, the issue is of broader importance. Advantages of an
invention recited in the specification or in the prosecution
history, but not in the claims, are not part of the claims.
Certainly the written description should be consulted to interpret claims, as they are drafted to be read together. See
35 U.S.C. § 112 (2010) (“The specification shall contain a
written description of the invention . . . [and] shall conclude
with one or more claims particularly pointing out and distinctly claiming the subject matter which the applicant regards as his invention.”). But the advantages of an
invention and disclosure of how to make and use an invention are not to be incorporated into claims for purposes of
evaluating their indefiniteness. It is the language of the
claims that determines their definiteness.

Appx. 99

Case: 17-2149

4

Document: 96

Page: 6

Filed: 02/25/2020

HZNP FINANCE LIMITED v. ACTAVIS LABORATORIES UT, INC.

The language at issue here, “consisting essentially of,”
is clear, definite, language indicating that the constituents
of a claim cannot include materials that affect the basic and
novel properties of the claimed composition. Such materials may exist in an almost infinite variety. Certainly, such
a claim should not be successfully asserted against a composition that contains materials that render the composition unfit for its stated purpose. But until a suit arises, one
does not know what such an inconsistent material might
be. That does not make the claim indefinite.
In an infringement suit, the meaning of the “consisting
essentially of” language should boil down to a fact question,
i.e., whether the presence of an unrecited material in an
accused product is in fact inconsistent with, or defeats the
purpose of, the claimed composition. See PPG, 156 F.3d at
1357 (holding that, for a claim reciting glass “consisting essentially of” certain materials, the district court properly
“left it to the jury to determine whether the amounts of [an
unclaimed ingredient had] a material effect on the basic
and novel characteristics of the glass”). There may be no
question that a poison, such as arsenic, might be excluded
from a claim. But the fact that one generally has to determine this question at trial does not make the claim indefinite. To hold to the contrary is to vitiate established usage
that indefiniteness of claims is to be determined based on
what the claim recites, not advantages cited in the specification.
An example of how converting uncertainty concerning
measuring a property of an invention into indefiniteness of
claims may lead to unintended and incorrect results is as
follows:
Assume a claim recites a new and nonobvious compound, the usual situation of invention of a new pharmaceutical, not a composition of several components as here.
It is not necessary under our law to recite in the claims the
utility of the claimed compound, say, as an anti-

Appx. 100

Case: 17-2149

Document: 96

Page: 7

Filed: 02/25/2020

HZNP FINANCE LIMITED v. ACTAVIS LABORATORIES UT, INC.

5

inflammatory. That is stated in the specification. It is also,
under current law, unnecessary to recite in the claims how
that effect is measured. The utility or advantage of the
claimed compound are not generally challenged in examination unless they are not credible. MPEP § 2107 (9th ed.
Rev. 08.2017, Jan. 2018). Thus, aspects of the utility or its
measurement are not relevant to indefiniteness of the
claims. And since how one measures anti-inflammatory activity does not create an indefiniteness issue, why should
measuring better drying time? In fact, one wonders
whether, if this patent did not recite the methods by which
better drying time was measured, any indefiniteness of the
“consisting essentially of” language would have arisen at
all. Unfortunately, under the rule this opinion purports to
adopt, any uncertainty concerning advantages, utility, or
methods of determining such could, wrongly in my view, be
translated into indefiniteness of claims.
To be sure, this example does not deal with the “consisting essentially of” language, but the principle of importing an uncertainty in measuring an advantage of an
invention could have unintended potential effects well beyond this particular case. It should not be sound precedent.
I therefore respectfully dissent from the court’s decision not to rehear this case en banc to clarify that the “consisting essentially of” language does not render these and
similar claims that do not recite advantages of an invention
or methods of measuring them indefinite.

Appx. 101

